<html>
<title> - ADVANCING COMMERCIAL WEATHER DATA: COLLABORATIVE EFFORTS TO IMPROVE FORECASTS</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]


 
                   ADVANCING COMMERCIAL WEATHER DATA:
                         COLLABORATIVE EFFORTS
                          TO IMPROVE FORECASTS

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON ENVIRONMENT

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 20, 2015

                               __________

                           Serial No. 114-20

                               __________

 Printed for the use of the Committee on Science, Space, and Technology
 
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]


       Available via the World Wide Web: http://science.house.gov
       
                               ____________
                               
                               
                      U.S. GOVERNMENT PUBLISHING OFFICE
95-225PDF                WASHINGTON : 2015                      

              
________________________________________________________________________________________              
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="7413041b34170107001c1118045a171b195a">[email&#160;protected]</a>  
              
              
              
              
              
              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              FREDERICA S. WILSON, Florida
MICHAEL T. McCAUL                    SUZANNE BONAMICI, Oregon
STEVEN M. PALAZZO, Mississippi       ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, TEXAS
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
BILL JOHNSON, Ohio                   ED PERLMUTTER, Colorado
JOHN R. MOOLENAAR, Michigan          PAUL TONKO, New York
STEVE KNIGHT, California             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas
BARBARA COMSTOCK, Virginia
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
                                 ------                                

                      Subcommittee on Environment

                 HON. JIM BRIDENSTINE, Oklahoma, Chair
F. JAMES SENSENBRENNER, JR.,         SUZANNE BONAMICI, Oregon
    Wisconsin                        DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              ALAN GRAYSON, Florida
RANDY WEBER, Texas                   AMI BERA, California
JOHN MOOLENAAR, Michigan             MARK TAKANO, California
BRIAN BABIN, Texas                   BILL FOSTER, Illinois
BRUCE WESTERMAN, Arkansas            EDDIE BERNICE JOHNSON, Texas
DAN NEWHOUSE, Washington
GARY PALMER, Alabama
LAMAR S. SMITH, Texas
                            C O N T E N T S

                              May 20, 2015

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Jim Bridenstine, Chairman, 
  Subcommittee on Environment, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................     9

Statement by Representative Suzanne Bonamici, Ranking Minority 
  Member, Subcommittee on Enviorment, Committee on Science, 
  Space, and Technology, U.S. House of Representatives...........    10
    Written Statement............................................    12

Statement by Representative Eddie Bernice Johnson, Ranking 
  Member, Committee on Science, Space, and Technology, U.S. House 
  of Representatives.............................................    76
    Written Statement............................................    76

                               Witnesses:

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University
    Oral Statement...............................................    14
    Written Statement............................................    17

Mr. Scott Sternberg, President, Vaisala Inc.
    Oral Statement...............................................    30
    Written Statement............................................    32

Ms. Nicole Robinson, Chair, Hosted Payload Alliance
    Oral Statement...............................................    38
    Written Statement............................................    40

Dr. Bill Gail, Chief Technology Officer, Global Weather 
  Corporation
    Oral Statement...............................................    43
    Written Statement............................................    45

Dr. Thomas Bogdan, President, University Corporation for 
  Atmospheric Research
    Oral Statement...............................................    62
    Written Statement............................................    64

Discussion.......................................................    68

             Appendix I: Answers to Post-Hearing Questions

Dr. Scott Pace, Director, Space Policy Institute, George 
  Washington University..........................................    96

Mr. Scott Sternberg, President, Vaisala Inc......................    98

Ms. Nicole Robinson, Chair, Hosted Payload Alliance..............   101

Dr. Thomas Bogdan, President, University Corporation for 
  Atmospheric Research...........................................   102

            Appendix II: Additional Material for the Record

Letters of support of legislation from Geo Optics, Planet IQ, 
  Spire Global, Tempus Global Data, and Panasonic Avionics 
  Corporation submitted for the record by Representative Jim 
  Bridenstine, Chairman, Subcommittee on Environment, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................   106

                   ADVANCING COMMERCIAL WEATHER DATA:.
                         COLLABORATIVE EFFORTS.
                          TO IMPROVE FORECASTS

                              ----------                              


                        WEDNESDAY, MAY 20, 2015

                  House of Representatives,
                        Subcommittee on Environment
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:03 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Jim 
Bridenstine [Chairman of the Subcommittee] presiding.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    Chairman Bridenstine. The Subcommittee on the Environment 
will come to order.
    Without objection, the Chair is authorized to declare a 
recess of the Subcommittee at any time.
    Welcome to today's hearing titled ``Advancing Commercial 
Weather Data: Collaborative Efforts to Improve Forecasts.''
    I recognize myself for five minutes for an opening 
statement.
    Good morning and welcome to this hearing of the 
Subcommittee on the Environment. First, I would like to 
acknowledge that last night the House passed H.R. 1561, the 
Weather Research and Forecasting Innovation Act of 2015. I want 
to thank Chairman Smith for his continued leadership on this 
issue. I thank the Committee Vice Chairman, Mr. Lucas, for his 
sponsorship of the bill. As a fellow Oklahoman, I know he 
understands the vital need for this bill, and his involvement 
has been crucial to the success of H.R. 1561.
    I also want to thank the Ranking Member of the Environment 
Subcommittee, Ms. Bonamici, for being the lead cosponsor and 
being so helpful to this effort. This bill is the result of a 
very bipartisan agreement and it is stronger for it. The 
Weather Research and Forecasting Innovation Act will improve 
our ability to accurately predict the weather and save lives 
and property.
    This week, the Senate also introduced weather legislation, 
and I am glad that they are beginning to look at an issue that 
we here in the House have been looking at for a few years now. 
I look forward to working with our Senate counterparts and 
would encourage them to take up H.R. 1561 so that we can set in 
motion the improvements needed to better predict the weather.
    Today's hearing continues this Subcommittee's focus on how 
the National Oceanic and Atmospheric Administration, NOAA, uses 
weather data to enhance their forecasting capability, how and 
where they get the necessary data, and how these processes can 
be improved.
    A main tenant of our now House-passed weather legislation 
is its recognition of the role commercial weather data can play 
as a piece of the solution available to NOAA. A previous 
hearing of this Subcommittee looked into issues with NOAA's 
satellite programs that could lead to gaps in data. That 
hearing served to underscore my belief that we need to augment 
our space-based observing systems by incorporating alternative 
methods of data collection.
    Today, we will hear from experts across multiple 
disciplines to better understand how NOAA currently 
incorporates external data, as well as what options are 
available to NOAA outside of traditional sources. For example, 
NOAA already purchases limited commercial data for various 
modeling and forecasts. These partnerships can serve as a model 
as NOAA necessarily evolves to meet its critical mission. 
Likewise, hosted payloads offer additional flexibility to the 
agency by providing space on commercial satellites that can 
host weather instruments and sensors, including proprietary 
NOAA instruments.
    International partnerships also play an important role. 
Namely, NOAA's satellite partnership with the Europeans has 
historically been crucial when faced with satellite failures. 
Our partnership with Taiwan on the COSMIC and COSMIC-2 programs 
demonstrates the value of new weather technology that will 
increase our ability to predict severe weather events in the 
near future.
    Information from commercial aircraft sensors could also 
factor more into our data streams than it currently does. 
Additionally, we should look at how our unmanned aerial systems 
and how they play into this. In Oklahoma, there are people 
working every day to incorporate UAS into the airspace, 
including how they could be utilized to monitor the weather in 
areas where passenger aircraft do not fly.
    One issue that will need to be addressed as new options for 
continuous, robust, and cost-effective data streams are 
explored, is how NOAA shares information it receives. This is a 
sensitive subject, I understand that, but it needs to be 
discussed. I am concerned that a viable commercial weather 
industry could face challenges under NOAA's current 
interpretation of how our international obligations regarding 
access to data are made.
    However, we know that in practice NOAA does in fact 
purchase commercial data that they do not share, and that our 
international obligations are much more nuanced than are 
sometimes interpreted to being.
    I know that Dr. Stephen Volz, head of NESDIS, has signaled 
his openness to commercial data, and I appreciate his very 
forward-looking view on this matter. He and other NOAA 
officials have sometimes couched their support with the caveat 
that data must be available for free to all. In some cases, 
this could hinder a free market for data or a market at all for 
data.
    I'd like to use this hearing to kick-start the conversation 
on how we can craft a data policy that meets our international 
obligations, provides access to researchers and the academic 
community, and does not prevent the growth of this nascent 
industry.
    I look forward to a lively discussion today that highlights 
the possibilities available to NOAA to add new sources of data 
and flexibility to enhance our weather forecasting systems.
    [The prepared statement of Chairman Bridenstine follows:]

           Prepared Statement of Subcommittee on Environment
                        Chairman Jim Bridenstine

    Good morning and welcome to this hearing of the Subcommittee on the 
Environment.
    First, I would like to acknowledge that last night the House passed 
H.R. 1561, the Weather Research and Forecasting Innovation Act of 2015. 
I want to thank Chairman Smith for his continued leadership on this 
issue. I thank the Committee Vice Chairman, Mr. Lucas for his 
sponsorship of the bill. As a fellow Oklahoman, I know he understands 
the vital need for this bill, and his involvement has been crucial to 
the success of H.R. 1561. I also want to thank the Ranking Member of 
the Environment Subcommittee, Ms. Bonamici, for being the lead co-
sponsor. This bill is the result of a bipartisan agreement and is 
stronger for it. The Weather Research and Forecasting Innovation Act 
will improve our ability to accurately predict the weather and save 
lives and property.
    This week the Senate also introduced weather legislation, and I am 
glad they are beginning to look at an issue the House has been working 
on for a few years now. I look forward to working with our Senate 
counterparts, and would also encourage them to take up the H.R. 1561 so 
that we can set in motion the improvements needed to better predict the 
weather.
    Today's hearing continues this Subcommittee's focus on how the 
National Oceanic and Atmospheric Administration, NOAA, uses weather 
data to enhance their forecasting capability, how and where they get 
that necessary data, and how these processes can be improved.
    A main tenant of our now House-passed weather legislation is its 
recognition of the role commercial weather data can play as a piece of 
the solutions available to NOAA. A previous hearing of this 
Subcommittee looked into issues with NOAA's satellite programs that 
could lead to gaps in data.
    That hearing served to underscore my belief that we need to augment 
our space-based observing systems by incorporating alternative methods 
of data collection. Today we will hear from experts across multiple 
disciplines to better understand how NOAA currently incorporates 
external data, as well as what options are available to NOAA outside of 
traditional sources.
    For example, NOAA already purchases limited commercial data for 
various modeling and forecasts. These partnerships can serve as a model 
as NOAA necessarily evolves to meet its critical mission. Likewise, 
hosted payloads offer additional flexibility to the Agency by providing 
space on commercial satellites that can host weather instruments and 
sensors, including proprietary NOAA instruments.
    International partnerships also play an important role. Namely, 
NOAA's satellite partnership with the Europeans has historically been 
crucial when faced with satellite failures. Our partnership with Taiwan 
on the COSMIC and COSMIC-2 programs demonstrates the value of a new 
weather technology that will increase our ability to predict severe 
weather events in the near future.
    Information from commercial aircraft sensors could also factor more 
into our data streams than it currently does. Additionally, we should 
look at how our unmanned aerial systems play into this. In Oklahoma, 
there are people working every day to incorporate UAS into the 
airspace, including how they could be utilized to monitor the weather 
in areas where passenger aircraft do not fly.
    One issue that will need to be addressed as new options for 
continuous, robust, and cost-effective data streams are explored, is 
how NOAA shares the information it receives. This is a sensitive 
subject, but it needs to be discussed. I am concerned that a viable 
commercial weather industry will face challenges to mature under NOAA's 
current interpretation of our international obligations regarding 
access to data.
    However, we know that in practice NOAA does in fact purchase some 
commercial data that they do not share, and that our international 
obligations are much more nuanced.
    I know that Dr. Stephen Volz, head of NESDIS, has signaled his 
openness to commercial data, and I appreciate his forward-looking view. 
However, he and other NOAA officials have couched their support with 
the caveat that data must be made available, for free, to all.
    I'd like to use this hearing to kick start the conversation on how 
we can craft a data policy that meets our international obligations, 
provides access to researchers and the academic community, and does not 
prevent the growth of this nascent industry.
    I look forward to a lively discussion today that highlights the 
possibilities available to NOAA to add new sources of data and 
flexibility to enhance our weather forecasting systems.

    Chairman Bridenstine. I would like to now recognize the 
Ranking Member, the gentlewoman from Oregon, for an opening 
statement.
    Ms. Bonamici. Thank you very much, Mr. Chairman, and thank 
you to the witnesses for being here today.
    I want to start by congratulating be Subcommittee Chairman 
on the passage of H.R. 1561, the Weather Research and 
Forecasting Innovation Act of 2015, on the House Floor 
yesterday. We've been working on this together for a couple of 
years. I know the Chairman shares my interest in doing all we 
can to protect the American people from severe weather events. 
The legislation we've been working on together will go a long 
way in improving the nation's weather forecasting capabilities.
    I'm also pleased that we're holding today's hearing to 
discuss the benefits and challenges associated with advancing 
the role of commercial weather data in our national weather 
enterprise. The legislation passed yesterday takes an important 
first step towards strengthening and improving NOAA's 
partnerships with the private sector. But there are several 
issues that NOAA and this Subcommittee need to work through to 
achieve the appropriate balance. The complexity of such a 
transition is why I'm glad we're holding this hearing today.
    And as impressive as our witness panel is this morning, any 
discussion of this topic is incomplete without also hearing 
from NOAA. And I understand that NOAA was invited but unable to 
attend on this particular date because of time constraints, 
but, Mr. Chairman, I trust that we can find another time to 
hear directly from NOAA about their current policies and 
challenges that they see with expanding the purchase and use of 
commercial weather data. Nevertheless, I'm looking forward to 
this morning's discussion.
    As we're exploring a path forward for commercial weather 
data, it's important for us to first understand the history of 
the partnership between NOAA and the private sector. It's a 
long and fruitful partnership. Currently, NOAA procures the 
nation's geostationary and polar satellites through contracts 
with the private sector. This government-owned commercially 
operated structure provides critical observational data that's 
the backbone of our numerical weather prediction and it's based 
on the premise that government information is a valuable 
resource and a public good. Therefore, the data gathered by 
these satellites and used by NOAA is made available to the 
public. The preservation of full and open access to core data 
products is essential and it's enabled the growth of the whole 
weather enterprise, public and private.
    Policies that enable the sharing of data and information 
with the research community, our international partners, and 
commercial entities has brought the weather industry to where 
it is today. This billion-dollar industry owes much of its 
success to these open-data policies, and I'm concerned about 
whether and how the industry will continue to grow if we were 
to dramatically alter these open-access policies.
    NOAA also has a history of incorporating commercial weather 
data into its products and services. For example, we'll hear 
today from a company that provides NOAA with real-time 
lightning data, which is essential for its severe weather 
warnings and forecasts. All of these external data sources are 
valuable but they supplement observations from government 
satellites; they do not replace them. If we're moving toward a 
model where the government is solely a purchaser, not a 
provider, of weather data, then there are a number of unique 
challenges and important questions that must be addressed to 
ensure the stability, credibility, and reliability of the 
nation's weather forecasting capabilities.
    And, Mr. Chairman, you began to list some but I'm going to 
add specifically; can NOAA freely share the data it purchases? 
If not, what would that mean for maintaining our international 
obligations? If NOAA maintains its policy of free and 
unrestricted use of data it purchases, will it be forced to 
purchase data at a premium that will outweigh the anticipated 
cost savings?
    Now, there are several other issues we could discuss but 
these are the kinds of questions NOAA has been wrestling with 
while developing policies and practices for purchasing 
commercial data over the years. I know they're still working 
hard to address these questions and others, and again, Mr. 
Chairman, I want to emphasize that we need NOAA to be a part of 
these discussions going forward.
    I know everyone involved in the weather enterprise from 
NOAA to its industry partners and our talented researchers are 
all working toward the same goal of advancing our ability to 
forecast the weather, save lives, and improve our economy in 
the process. As we identify ways for NOAA to work more closely 
with industry to incorporate commercial weather data into its 
models, products, and services, we must be mindful of the 
risks.
    So thank you, Mr. Chairman, and again, thank you to our 
witnesses for being here this morning. And I yield back the 
balance of my time.
    [The prepared statement of Ms. Bonamici follows:]

            Prepared Statement of Subcommittee on Oversight
                Minority Ranking Member Suzanne Bonamici

    Thank you, Mr. Chairman, and thank you witnesses for being here 
today. I want to start by congratulating the Chairman for passage of 
H.R. 1561, the Weather Research and Forecasting Innovation Act of 2015 
on the House floor yesterday. I know he shares my interest in doing all 
we can to protect the American people from severe weather events, and 
the legislation we worked on together will go a long way in improving 
the nation's weather forecasting capabilities.
    I am also pleased that we are holding today's hearing to discuss 
the benefits and challenges associated with advancing the role of 
commercial weather data in our National weather enterprise. Our 
legislation takes an important first step toward strengthening and 
improving NOAA's partnerships with the private sector. However, there 
are a number of issues that NOAA and this Subcommittee need to work 
through to achieve the appropriate balance. The complexity of such a 
transition is why I am glad we are holding today's hearing. As 
impressive as our witness panel is this morning, however any discussion 
of this topic is incomplete without also hearing from NOAA. I 
understand that NOAA was unable to be here today because of time 
constraints, but Mr. Chairman, I trust that we can find another time to 
hear directly from NOAA about their current policies and any challenges 
they see with expanding the purchase and use of commercial weather 
data. Nevertheless, I am looking forward to this morning's discussion.
    As we are exploring a path forward for commercial weather data, it 
is important for us to first understand the history of the partnership 
between NOAA and the private sector. It is a long and fruitful 
partnership. Currently, NOAA procures the nation's geostationary and 
polar satellites through contracts with the private sector. This 
government owned, commercially operated structure has served us well. 
It has provided critical observational data that is the backbone of our 
numerical weather prediction and is based on the premise that 
government information is a valuable resource and a public good. 
Therefore, the data gathered by these satellites, and used by NOAA, is 
made available to the public.
    The preservation of full and open access to core data products is 
essential and has enabled the growth of the whole weather enterprise-
public and private. Policies that enable the sharing of data and 
information with the research community, our international partners, 
and commercial entities, has brought the weather industry to where it 
is today. This billion dollar industry owes much of its success to 
these open data policies and I'm concerned about whether and how the 
industry will continue to grow if we dramatically alter these open 
access policies.
    NOAA also has a history of incorporating commercial weather data 
into its products and services. For example, we will hear today from a 
company that provides real-time lightning data to NOAA, which is 
essential for its severe weather warnings and forecasts. All of these 
external data sources are valuable, but they supplement observations 
from government satellites, they do not replace them.
    If we are moving toward a model where the government is solely a 
purchaser, and not a provider, of weather data then there are a number 
of unique challenges and important questions that must be addressed to 
ensure the stability, credibility, and reliability of the nation's 
weather forecasting capabilities.
    Specifically, can NOAA freely share the data it purchases?
    If not, what would that mean for maintaining our international 
obligations?
    If NOAA maintains its policy of free and unrestricted use of data 
it purchases, will it be forced to purchase data at a premium that will 
outweigh the anticipated cost savings?
    I could go on, but these are the kinds of questions NOAA has been 
wrestling with while developing policies and practices for purchasing 
commercial data over the years. I know they are still working hard to 
addresses these questions and others and again, Mr. Chairman I want to 
emphasize that we need NOAA to be a part of these discussions going 
forward.
    I know everyone involved in the weather enterprise from NOAA to its 
industry partners to our talented researchers are all working toward 
the same goal of advancing our ability to forecast the weather, save 
lives, and improve our economy in the process. As we identify ways for 
NOAA to work more closely with industry to incorporate commercial 
weather data into its models, products, and services, we must be 
mindful of the risks.
    Thank you, Mr. Chairman, and again thank you to our witnesses for 
being here this morning. I yield back the balance of my time.

    Chairman Bridenstine. I'd like to thank the Ranking Member 
for her opening statement.
    Just for a matter of record, we agreed to this hearing on 
May 1, 20 days ago. On May 4, 16 days ago, we did invite NOAA. 
They indicated that that wasn't sufficient time to be here and 
testify.
    So I'd like to introduce our witnesses now. Our first 
witness is Dr. Scott Pace, Director of George Washington 
University's Space Policy Institute. Before joining the 
university, Dr. Pace was Associate Administrator for Program 
Analysis and Evaluation at NASA. In addition, he served as the 
Assistant Director for Space and Aeronautics in the White House 
Office of Science and Technology Policy. Dr. Pace received his 
bachelor's degree in physics from Harvey Mudd College, master's 
degrees in aeronautics and astronautics and technology and 
policy from MIT, and his Ph.D. in policy analysis from RAND 
Graduate School. Thank you for being here, Dr. Pace.
    Mr. Scott Sternberg is our next witness, President of 
Vaisala Inc. At Vaisala, Mr. Sternberg is responsible for the 
regional governance of the company's U.S.-based operations. 
Before joining Vaisala, Mr. Sternberg specialized in providing 
advanced digital imaging solutions to scientific applications 
at Roper Industries Photometrics. Mr. Sternberg serves on the 
Board of Trustees for the University Corporation of Atmospheric 
Research, or UCAR, and as Chairman of the Board of Directors 
for CO-LABS. Mr. Sternberg received his bachelor's degree in 
physics from the State University of New York College at 
Cortland and his master's degree in physics and spectroscopy 
from Colorado State University.
    Ms. Nicole Robinson is our next witness, Chair of the 
Hosted Payload Alliance. Ms. Robinson also serves as the 
Corporate Vice President of Government Market Solutions Center 
at SES Government Solutions and on the Board of the Washington 
Space Business Roundtable. In 2012 she was the recipient of the 
Future Leaders Award by the Society of Satellite Professionals 
International. Ms. Robinson received her bachelor's degree in 
communications from Radford University and her MBA from Liberty 
University. In addition, she's a graduate of the Senior 
Executives and National and International Security Program at 
Harvard University.
    Dr. Bill Gail is our next witness, Cofounder and Chief 
Technology Officer of the Global Weather Corporation. Prior to 
joining GWC, Dr. Gail served as President of the American 
Meteorological Society. He has worked over two decades in the 
fields of meteorology services, satellite meteorology, and 
location-aware software. In addition, he recently served as the 
U.S. National Academy of Sciences, NAS, Research Council 
Committee reviewing the National Weather Service modernization 
program. Dr. Gail received his bachelor's degree in physics and 
his Ph.D. in electrical engineering from Stanford University.
    Dr. Thomas Bogdan is our final witness, President of the 
University Corporation for Atmospheric Research, UCAR. Dr. 
Bogdan leads UCAR in its mission of providing science in 
service to society through innovative partnerships with more 
than 100 member colleges and universities in the UCAR 
consortium. Before joining UCAR, Dr. Bogdan served as Director 
of NOAA's Space Weather Prediction Program where he helped 
transition the first numerical space weather prediction model 
into operations. Prior to joining NOAA, Dr. Bogdan served as 
the National Science Foundation's Program Director for Solar 
Terrestrial Physics. Dr. Bogdan received his bachelor's degree 
in physics and mathematics from the State University of New 
York at Buffalo and his master's and Ph.D. in physics from the 
University of Chicago. Needless to say, we have a bunch of 
smart people today.
    In order to allow time for discussion, please limit your 
testimony to five minutes.
    I would ask unanimous consent--we have the gentleman from 
Colorado here. I'd ask unanimous consent--he's not on the 
Subcommittee but maybe today we could have you as an honorary 
member of the Subcommittee because of your interest in this 
topic. With unanimous consent, we'll have the gentleman from 
Colorado join us on this committee.
    Ms. Bonamici. I have no objection, Mr. Chairman.
    Chairman Bridenstine. No objection.
    In order to allow time for discussion, please limit your 
testimony to five minutes. Your entire written statement will 
be made a part of the record.
    I now recognize Dr. Pace for five minutes to present his 
testimony.

             TESTIMONY OF DR. SCOTT PACE, DIRECTOR,

                    SPACE POLICY INSTITUTE,

                  GEORGE WASHINGTON UNIVERSITY

    Dr. Pace. Okay. Thank you, Mr. Chairman. And thanks to the 
Ranking Member and the Members of the Committee for the 
opportunity to discuss the important topic of weather data 
policies and the challenges facing NOAA in the utilization of 
commercial remote sensing data.
    From 1990 to 1993 I was a civil servant in the U.S. 
Department of Commerce working in the Office of Space Commerce 
and the Office of the Deputy Secretary. I believe the Office 
continues to have an important role to play in promoting the 
growth of the U.S. commercial space activity and I was 
personally glad to see the support for approval of H.R. 2263, 
the Office of Space Commerce Act.
    While at Commerce, I had the privilege of working on Title 
II of the Land Remote Sensing Policy Act with Barry Beringer, 
the former Chief Counsel of the House Committee on Science. 
Title II reformed the U.S. Commercial Remote Sensing Licensing 
process and removed a number of regulatory barriers to space-
based commercial remote sensing. This reform helped foster a 
more dynamic U.S. industry that is globally competitive today 
and created the new options that I think we're looking at for 
NOAA today.
    NOAA is facing both opportunities and challenges in taking 
advantage of an increasingly sophisticated, innovative 
commercial remote sensing industry to meet its mission needs. 
Industry capabilities are greater than ever before but so are 
the budget pressures and expectations being placed on NOAA to 
meet the nation's need for weather forecasting and warning.
    I'm currently a member of the NOAA Advisory Committee on 
Commercial Remote Sensing known as ACCRES. Our committee has 
noted these global trends and in particular the increasing 
promise of small satellite constellations and unmanned air 
vehicles to provide innovative services. Securing benefits from 
private data sources requires both a shift in the agency's 
mindset and appropriate resources for its implementation, both 
financial and human capital.
    ACCRES summarized its concern in a February 2015 letter to 
the Secretary of Commerce on Commercial Remote Sensing and I've 
included that in my written testimony for your consideration.
    The Commercial Remote Sensing Act of 2015, H.R. 2261, I 
believe, is a constructive step in addressing the challenges 
faced by NOAA in meeting its regulatory responsibilities. The 
agency needs to both streamline its processes and receive 
additional resources to meet a growing workload. NOAA also 
needs the active cooperation of other agencies, notably the 
Departments of State and Defense in more quickly adjudicating 
license applications. Delays and uncertainties in licensing new 
technical capabilities are impeding the ability of U.S. firms 
to innovate and puts them at risk of following, not leading, 
their global competitors.
    I would point out that commercial remote sensing data 
really isn't an option until you get the license, until you get 
the satellites on orbit.
    NOAA is facing important risks internationally as well. The 
United States has been the leader in openly sharing 
environmental data from civil scientific satellites with 
researchers worldwide. This practice is not as widely followed 
as the scientific community would like with many of our 
partners. Access to international environmental data sets for 
climate change research is uneven in some countries hoping to 
monetize the data in a commercial-like manner. Some foreign 
firms--forms of public-private partnerships created in response 
to their own domestic budget constraints also encourage 
restrictions that constrain scientific research in an effort to 
gain revenue.
    Another source of risk affecting public and private remote 
sensing alike is radiofrequency interference, in particular, 
commercial demand for spectrum to support terrestrial mobile 
broadband services has increased pressures on many bands used 
for space services and scientific applications. Sensitive GPS 
radio occultation measurements use receivers with a very wide 
front ends to acquire weak signals, accurate measurements would 
be impaired if high-powered communication networks were to be 
deployed in the bands adjacent to GPS.
    NOAA can and should be a leader in fostering the 
competitiveness of U.S. commercial remote sensing industry 
through its regulatory role. It can and should be a leader in 
promoting scientific cooperation and data sharing in accordance 
with international data sharing principles of the Group on 
Earth Observations.
    NOAA is at the center of a rapidly changing global 
environment in which it can leverage private sector 
capabilities to meet public needs. In order to succeed, 
however, NOAA needs to proactively shape the rules and 
practices of this environment and not merely respond to it. And 
I commend this hearing for starting the conversation to balance 
some of the data policy issues I think that we're all 
struggling with.
    Thank you for your attention and I'm happy to answer any 
questions you might have.
    [The prepared statement of Dr. Pace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    Chairman Bridenstine. Thank you, Dr. Pace. I'd like to now 
recognize Mr. Sternberg for five minutes.

               TESTIMONY OF MR. SCOTT STERNBERG,

                    PRESIDENT, VAISALA INC.

    Mr. Sternberg. Mr. Chairman, Ranking Member Bonamici, and 
the Members of the Subcommittee, thank you for the opportunity 
to speak with you today.
    I am Scott Sternberg. I serve as the President of a company 
called Vaisala Inc. We're a global company of 1,600 
professionals of which 450 are located here in the United 
States. We deliver weather observation product systems and 
services with a specific focus on scientific accuracy, 
precision, and reliability. And I think it's worth also noting 
that we focus on the ground-based segment of our observation 
networks.
    I have basically three points that I'd like to make today: 
first, to share some real-world experiences regarding the 
provisioning of commercial weather data to the federal 
government, specifically in the context of the National 
Lightning Detection Network; second, to emphasize the 
importance of data quality for improved forecast; and finally, 
to stress the benefits of what I call contractual clarity.
    At Vaisala we have an 80-year history in environmental 
sensing and data provisioning. One of Vaisala's first customers 
was MIT when in 1936 Vaisala delivered radiosondes, devices 
that are carried on weather balloons to measure the vertical 
atmosphere. Today, our sensors and technology are employed in 
many federal observation networks, including the Nexrad radar 
network, upper-air sounding stations, the ASOS platform along 
both the roadways and runways of America's transportation 
network and descending into severe storms to aid in the 
prediction of hurricanes. Our products and services enable our 
customers to better understand present, future, and to reduce 
uncertainty, but most importantly, it's to make informed 
decisions.
    As a country, we're faced with the need to mitigate the 
impacts of extreme weather. This is demonstrated by Hurricane 
Sandy in 2012; the Colorado floods of 2013; the Moore, 
Oklahoma, tornado outbreak in the same year; and the Western 
drought, which is ongoing. These events alone are responsible 
for more than $70 billion in losses and over 190 fatalities.
    A fundamental element of our ability to reduce impacts of 
severe weather is the availability and use of reliable and 
accurate weather data. Our success is dependent upon a balanced 
approach, which includes ground-based observations, aerial 
measurements, and satellite-derived data. To regain our 
preeminence in weather forecast, a subject that this 
Subcommittee has recently addressed with the Weather Research 
and Forecasting Innovation Act, we need concerted efforts from 
the entire weather enterprise, the public, private, and 
academic sectors.
    One area where this has been demonstrated successfully is 
in lightning detection and lightning data delivery. Vaisala 
designed, deployed, owns, operates, and maintains the National 
Lightning Detection Network, or the NLDN. It's the longest 
continuously operating lightning network in the world. The NLDN 
has been providing precision real-time continental-scale 
lightning data since 1989 and continues to be the foundational 
data set for the federal government.
    The NLDN successfully demonstrates how the private, 
academic, and government sectors came together to achieve a 
common goal. Today's NLDN represents countless contributions 
from each of the sectors over its 30-year history.
    As a customer, the federal government uses NLDN raw data 
for inputs for severe weather forecasting. In addition, 
academic research uses the growing archive of the nearly 25 
million cloud-to-ground lightning strikes that occur every year 
to better understand the role of atmospheric electricity in 
severe storms.
    Much of the success of the lightning data model is based on 
a contractual arrangement that has created a balance wherein 
the federal government's use of lightning data is clearly 
defined, enabling Vaisala to successfully pursue lightning-
related business in other markets. Through informed 
negotiation, internal controls, and appropriate data licensing 
and redistribution policies, the economic value of the 
commercial data is maintained while serving the public 
interest. This contractual clarity has allowed Vaisala to 
generate revenue that has in turn been reinvested to deliver 
continual improvements in the sensor technology and signal 
processing within the network.
    Finally, rigorous quality control reinforced by scientific 
peer-reviewed validation studies assures users that they're 
receiving the highest-quality data available. This is vital not 
only due to the fact that the output of any numerical model 
strictly depends on the inputted raw data but also because 
lives and livelihoods are at stake.
    The weather enterprise has changed substantially over the 
last few decades with the creation of over 350 U.S. commercial 
weather companies generating approximately $3 billion of 
revenue each year. In the right instances, the private sector 
should look to--the public sector should look to the private 
sector companies for products and services as a way to increase 
efficiency and effectiveness of their operations while at the 
same time reducing costs. However, as the NLDN has 
demonstrated, both the government and the private sectors need 
to recognize their mutual dependence on each other to move 
forward.
    Thank you for this opportunity and I'd be willing to answer 
any questions.
    [The prepared statement of Mr. Sternberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
   
    
    Chairman Bridenstine. Thank you for your testimony.
    I'd like to now recognize Ms. Robinson for five minutes.

               TESTIMONY OF MS. NICOLE ROBINSON,

                 CHAIR, HOSTED PAYLOAD ALLIANCE

    Ms. Robinson. Thank you. Chairman Bridenstine, Ranking 
Member Bonamici, and members of the committee, as Chair of the 
Hosted Payload Alliance, it's my honor to participate in 
today's proceedings while representing our diverse and 
accomplished group of Hosted Payload Alliance members. I was 
pleased to submit to the committee my written testimony, as 
well as the database of current commercially hosted government 
payloads on contract today, and I thank you for the opportunity 
to offer these brief summarized remarks.
    During your February hearing on America's weather 
satellites in weather forecasting, Chairman Bridenstine, you 
urged that we should ``look to augment our satellite systems 
through commercial means, just as the Department of Defense and 
NASA have done,'' and ``we must look outside the box for new 
methods of providing essential weather data.'' The Hosted 
Payload Alliance has heard your call for commercial integration 
and stands ready to assist and enable NOAA efforts to 
incorporate new and responsive acquisition practices to further 
weather-sensing capabilities.
    The Hosted Payload Alliance, already with a history of 
demonstrated success on orbit, and with other payloads on 
contract, is ready to institutionalize this ``out-of-the-box'' 
approach. This hearing helps that effort.
    A hosted payload is a portion of a satellite, such as a 
sensor, instrument, or a set of communication transponders that 
are owned by an organization or agency other than that of the 
primary satellite operator. The hosted portion of the satellite 
operates independent of the main spacecraft but shares the 
satellite's power supply, transponders, and in some cases, the 
ground systems.
    The concept of a hosted payload is not entirely new, as 
many U.S. Government-designed and built satellites have for 
years been developed with hosting in mind. However, what is 
relatively new is the concept of using commercially available 
space, weight, and power to host government-developed payloads, 
instruments, or transponders. Commercially hosted payloads 
enable government organizations to make use of a commercial 
satellite platform in order to save costs and create a more 
distributed architecture for space assets.
    Choosing, in essence, to piggyback a hosted payload on a 
commercial satellite has many benefits. I'll summarize here, 
and my written statement provides additional depth into each of 
these sections.
    Shorter time to space. Roughly 20 commercial satellites are 
launched to geosynchronous Earth orbit each year. Each one 
presents an opportunity to add additional capability.
    Lower cost. Placing a hosted payload on a commercial 
satellite costs a fraction of the amount of building, 
launching, and operating an entire satellite by itself.
    A more resilient architecture. Posted payloads enable more 
resilient space architecture by distributing assets over 
multiple platforms and locations.
    Increased access to space. With roughly five satellite 
launches every quarter, the commercial satellite industry 
provides a multitude of opportunities for frequent access to 
orbit.
    Operational options. Hosted payloads have multiple options 
to use existing satellite operations facilities with shared 
command and control of the hosted payload through the life of 
the host satellite, or a completely dedicated and separate 
system operated by the hosted payload owner.
    NOAA has stated their goal of future architecture is to 
``evolve to a more responsive architecture that leverages a 
suite of capabilities including rapid, less costly missions and 
direct purchases of services and data to ensure long-term 
economic viability.'' Using hosted payloads on commercial 
satellites is a pivotal tool for the government and NOAA 
specifically to leverage emerging technologies to gain 
affordable access to additional space capabilities and critical 
enablers in constrained fiscal environment.
    The hosted payload model has clearly demonstrated the 
timeliness, responsiveness, and cost efficiency of integration 
between the government and commercial industry. Pointing to a 
couple of examples, with the Commercially Hosted Infrared 
Payload program, known as CHIRP, a successful DOD program that 
achieved its objective in an initiative that provide capability 
for an estimated 15 percent of the cost to build, launch, and 
operate a comparable DOD satellite.
    In another real-world example, a hosted payload has saved 
the Australian Defense Force on the order of $150 million in 
satellite communication costs versus traditional, monolithic 
acquisition practices. In the civilian applications arena, 
multiple Wide Area Augmentation System, or WAAS-hosted 
payloads, have enabled the FAA to achieve enhanced GPS accuracy 
for safer and more efficient air traffic control.
    Finally, the members of the Hosted Payload Alliance value 
the opportunity to promote the values of our alliance to the 
Subcommittee. We appreciate your most recent legislative 
support, H.R. 1561, voted out of the House just last night. The 
language supporting consideration of hosted payloads is 
significant and we're thankful for your continued support of 
our collective effort to contribute. Thank you.
    [The prepared statement of Ms. Robinson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    
    Chairman Bridenstine. Thank you, Ms. Robinson.
    Dr. Gail, you're recognized for five minutes.

     TESTIMONY OF DR. BILL GAIL, CHIEF TECHNOLOGY OFFICER,

                   GLOBAL WEATHER CORPORATION

    Dr. Gail. Chairman Bridenstine, Ranking Member Bonamici, 
and distinguished Members of the Subcommittee, it's a privilege 
to be here testifying today. I will be speaking to you from my 
personal perspective but I wear two hats: first, as a voice of 
the weather community in my role as past President of the 
American Meteorological Society, and second, as a member of 
that community building my own startup company, Global Weather 
Corporation.
    Let me first commend you for the attention you're giving to 
the broad topic of NOAA data sources and particularly the role 
of commercial satellite data. Through the satellite data issue 
is itself important, you have been wise to broaden the 
discussion. The reason is that the world moves ever more 
rapidly around us. Weather is quickly becoming part of the 
emerging information economy. The services we provide will need 
to change. They will become more highly customized matched to 
each user's needs, and delivered when and where users need it. 
We will no longer produce one forecast for the entire United 
States but instead one or more for each individual business.
    Now, what does this mean for NOAA's data sources? Picture a 
train headed down the tracks. This train represents all of the 
data sources from satellites to balloons, which NOAA presently 
uses to monitor weather and run forecast models. Now imagine a 
second train that is rapidly catching the first traveling on a 
recently laid parallel track. It represents the emerging breed 
of external data sources epitomized by the Googles of the 
world, as well as innovative providers within our weather 
field.
    Such new data is vast and daunting, weather observations 
from automobiles, mobile phones, social networks, and a myriad 
of other sources never before available. Like it or not, these 
parallel tracks cannot remain separate for long. They 
inevitably reach a junction. The trains will collide or, 
through a bit of effort on the part of NOAA, they could be 
hitched together instead. Successfully hitching them would 
ensure NOAA of the ongoing value of its traditional data and 
leverage the vast amount of new weather-related data from 
emerging sources.
    Now, how do these trains get hitched? I believe NOAA 
already has the means. On its output side, NOAA has long relied 
on an elaborate services ecosystem. It is built on partnerships 
ranging from emergency managers to commercial companies. These 
partners extend NOAA's data and provide value-added services to 
end-users all at no cost to NOAA. This has been highly 
successful and is the envy of the world. It is estimated that 
nearly 90 percent of the weather information reaching the 
public is supplied through this ecosystem rather than directly 
by NOAA.
    Now, when it comes to the input side--in other words, data 
used by NOAA--the ecosystem is much less mature. My 
recommendation is that NOAA should focus on raising the data 
ecosystem to a level of maturity comparable to its highly 
successful services ecosystem. Through such an ecosystem, NOAA 
could extend the breadth and depth of the data they acquire 
even within limited budgets as costs are often shared by 
others. Such a data ecosystem would promote desirable 
characteristics of flexibility and robustness, enhancing NOAA's 
resilience to data loss scenarios and improving its technical 
performance.
    Now, building this data ecosystem raises many practical 
issues. You've seen this with the issue of commercial satellite 
sounding data before this Subcommittee. My written testimony 
describes many of the challenges and suggests some solutions. 
Among them is the challenge of protecting our core principle of 
open data. It has served this community well but needs to be 
extended so that important data sources are not made 
inaccessible. Resolving it properly is also critical to our 
international partners and to ensuring continuity of the data 
we receive from them.
    Succeeding with this vision will require innovation and 
partnerships as much as in technology. Our two trains will not 
hitch properly if we rely only on traditional mechanisms such 
as data buys. The new information world is characterized by 
business relationships that were unheard of when the data buy 
paradigm was first developed. NOAA has excellent experience 
creating innovative partnerships on the services side such as 
through their Weather-Ready Nation Initiative. It should seek 
to do so on the data side as well.
    Weather legislation isn't considered within Congress often. 
In deliberating the evolution of data sources used by NOAA, I 
urge you to take a decadal-scale view. The legislation you pass 
needs to stay relevant despite the enormous advances expected 
within information technology over that timescale. In this 
context, providing NOAA with the resources needed to develop a 
true data ecosystem will pay off to the nation many times over. 
Thank you.
    [The prepared statement of Dr. Gail follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

    
    Chairman Bridenstine. Thank you, Dr. Gail.
    Dr. Bogdan, you're recognized for five minutes.

           TESTIMONY OF DR. THOMAS BOGDAN, PRESIDENT,

        UNIVERSITY CORPORATION FOR ATMOSPHERIC RESEARCH

    Dr. Bogdan. Mr. Chairman, Ranking Member Bonamici, and 
Members of the Subcommittee, and Mr. Perlmutter, thank you for 
the opportunity to testify today. My name is Thomas Bogdan and 
I serve as the President of the University Corporation for 
Atmospheric Research, or UCAR.
    UCAR is a consortium of 105 member universities granting 
degrees in atmospheric and related earth sciences. UCAR's 
primary activity is managing the National Center for 
Atmospheric Research, or NCAR, and UCAR's Community Programs on 
behalf of the National Science Foundation.
    NCAR is a federally funded research and development center 
with over 500 scientists and engineers conducting weather and 
atmospheric research, plus staff that manages supercomputers, 
research aircraft, and instruments to observe the atmosphere. 
Staff at NCAR and our member universities conduct research that 
leads to more accurate, timely, and useful weather forecasts, 
forecasts that our government, the private sector, and the 
public rely on.
    As noted by the Chairman, data from multiple sources are 
essential if we are to maintain an up-to-date information 
system that will enable us to predict the weather and other 
environmental changes accurately. This is particularly 
important when we are dealing with costly weather events like 
tornadoes, hurricanes, floods, snowstorms, or extended periods 
of drought. The essential data come from a variety of sources, 
including the federal government, our universities, 
international partners, the transportation industries, and 
commercially owned and operated sources.
    And today's sources for data and observations are really 
only the beginning. The technology in our vehicles and cell 
phones holds tremendous potential for crowdsourcing a wealth of 
local data. In my written testimony I give examples of how this 
is already in use.
    With increasing amounts of open access to data, the power 
to process it, we have the capability to dramatically increase 
the accuracy of forecasts and expand the warning time for 
severe storms. NOAA and the private sector are investing in 
critical data acquisition. NOAA has begun dramatically 
increasing public access to these data, which will further 
expand scientific advancement and empower the ingenuity of the 
private sector to develop new economic opportunities.
    The value of big data was demonstrated very clearly during 
Hurricane Sandy. Three days out, forecasters predicted to 
within 10 miles where landfall would occur. Twenty years ago, 
forecasters might not have been able to predict that unusual 
left hook that the storm took into the New Jersey coast. We 
know that thousands of lives were saved by the powerful 
combination of access to vast amounts of data, sophisticated 
software, and the computing power to run it, and a trained 
workforce to skillfully analyze it. And we know it's that same 
combination that will advance science and drive innovation 
going forward.
    In closing, let me suggest three overarching principles for 
this Subcommittee to consider as it works through public policy 
for commercial weather data. First, atmospheric data must be of 
high quality, consistently generated, and remain in the public 
domain to meet the societal goals of resilience and the 
protection of lives and livelihood. The accelerated innovation 
and technical advances that the private sector can provide 
further serves this public interest.
    Second, public access to data is essential for science to 
advance. Data openly available to the scientific community 
provide opportunities for widespread review and analysis that 
in turn drive innovative science and economic opportunities.
    Third, we must ensure the benefits we receive through the 
reciprocal sharing of data and the insights with our 
international colleagues in Europe and elsewhere. This 
information is truly vital to the nation's public and private 
forecasters.
    Over the last two decades, our collective ability to 
capture vital data and then process, interpret, and share it 
has transformed our understanding of the natural world and 
opened new economic horizons. To improve forecasts, protect the 
public, and advance the economy, we need to continue to make 
data available for public and private scientific research.
    I appreciate very much the opportunity to participate in 
this hearing and would be glad to answer any questions. Thank 
you.
    [The prepared statement of Dr. Bogdan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]    
    
    
    Chairman Bridenstine. Thank you, Dr. Bogdan.
    I'd like to thank all the witnesses for their testimonies.
    Members are reminded that committee rules limit questioning 
to five minutes.
    I'd like to now recognize myself for five minutes of 
questions.
    I'd like to start with Dr. Pace. As I read your testimony, 
one thing stuck out to me and there was a sentence, a paragraph 
in here that says, ``while at Commerce, we had debates over 
whether NOAA should explore the purchase of wind profile 
information and perhaps be an 'anchor tenant' for newly 
emerging firms. We did not pursue this course as NOAA's limited 
budget was already committed to existing programs with well-
known requirements. Funds were not available for experiments, 
even ones''--this is the important point--``even ones that 
offered long-term cost savings.''
    So we had a testimony--Ms. Robinson mentioned it--we had a 
testimony a few months ago and my question was could we take a 
portion of what we are appropriating to NOAA and maybe fence it 
off for commercial data buys? And of course they were committed 
to existing programs of records. They were committed to, you 
know, not shifting any money to the commercial data buys. In 
your professional judgment, is there a time--you were dealing 
with this, it looks like, back in 1990 to 1993. The same issue 
back then is the same issue that we heard testimony on this 
committee regarding just a few months ago.
    Is it your assessment that, number one, should we attempt 
to fence off some money for commercial data buys? And I guess 
number two on a larger scale, when we provide information for 
free to the world through WMO 40, is that a blanket kind of 
policy or should that be taken on a case-by-case basis? And 
I'll turn it over to you to answer those questions.
    Dr. Pace. Thank you, Mr. Chairman.
    Yes. I mean the--to be fair to NOAA, we were looking at a 
new entrepreneurial venture that did not have a long track 
record, had some very promising technical characteristics that 
we thought could be an experiment. NOAA, also rightly, saw its 
top priority as doing its existing mission and not necessarily 
in promoting the private sector industry. It saw its primary 
mission as, you know, doing the Nation's weather.
    The argument really turned over what degree of risk the 
agency should take over what time horizon. From a near-term 
perspective, I think they were correct in saying, hey, we want 
every dollar to go toward our existing program of record. Our 
perspective, being in a bit of a different position, was that 
they needed to diversify their portfolio a bit and spend a 
small amount of money on longer-term or innovative experiments 
like this to give themselves options in the future. You know, 
there's an old saying that the urgent drives out the important. 
And their urgent issues there with weather satellite program I 
think really didn't give them, they thought, flexibility to do 
longer-term experiments.
    Now, whether that particular experiment would have worked 
out or not I'm not really prepared to judge. But from a policy 
matter I thought they should have a more diverse portfolio even 
while the bulk of their efforts went into executing programs of 
record.
    Chairman Bridenstine. Knowing what you know now about kind 
of how this industry has now developed, going back to 1993, 
would you have suggested fencing off a portion of those funds 
for maybe commercial data buys?
    Dr. Pace. I don't know that I would have taken money away 
from an existing program but I would try to have maybe worked 
with the White House and Congress to put together an 
experimental fund----
    Chairman Bridenstine. Got it.
    Dr. Pace. --to say this is something that's not part of 
NOAA's primary mission because it's really part of commerce 
looking to promote innovation and that NOAA would be really the 
technical expert to define requirements and what the agency--
and what would benefit the government, so being stewards of the 
public interest. But I would take it from a--maybe a larger 
perspective of promoting innovation more generally rather than 
just the NOAA mission.
    Chairman Bridenstine. And according to your testimony here, 
potential long-term cost savings.
    Dr. Pace. Right. Well, an example of that is we had 
arguments over Landsat.
    Chairman Bridenstine. Sure.
    Dr. Pace. And one of the issues in dealing with Landsat was 
incorporating new and advanced technologies. And part of our 
argument at the time was that we should have adopted some new 
technologies which are now showing up of course in small 
satellites to lower the cost of ownership of Landsat over the 
longer term. But again, a judgment was made that holding down 
near-term risk was more important than longer-term risks of 
cost growth. So again, that's an issue at NASA we also dealt 
with. It's a very, very common one.
    Chairman Bridenstine. Okay. I'm going to turn it over here 
in one second, but Dr. Bogdan, just real quick, you manage 
UCAR, which of course oversees and manages the COSMIC program, 
the partnership with Taiwan for GPS radio occultation. In order 
to do that mission, I would imagine NOAA had to produce 
standards and specifications for the data that is provided to 
feed the data assimilation systems in the numerical weather 
models.
    My question for you is real simple. How difficult is it to 
make those specifications available to the public if they are 
providing it to you already?
    Dr. Bogdan. I don't see any difficulty from our perspective 
in making that information available.
    Chairman Bridenstine. Okay. Well, my five minutes is 
expired and I'll turn it over to the Ranking Member, Ms. 
Bonamici, for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman.
    And I agree; this is a very impressive panel and I want to 
thank you, Mr. Chairman, and the staff on both sides of the 
aisle for working together to bring really the true experts. So 
thank you for being here.
    Dr. Gail, welcome back to the committee. Thank you for all 
your assistance with the Weather Forecasting Innovation bill.
    So, Dr. Gail and Dr. Bogdan, you both highlight in your 
testimonies the importance of maintaining free and open access 
to weather data and you talk about the benefits it provides to 
our economy and scientific advancement. And the current weather 
industry really stands as an example, I think, to the value of 
this policy.
    So I'd like both of you to talk about how might a change, 
if there's more restrictive policy, how would that affect 
scientific and economic opportunities? What are the 
international implications if the United States is no longer 
able to freely share weather data without restriction? And what 
would be the effect on the industry? Because numerous 
commercial products and services have been developed as a 
result of NOAA data, how would this affect the industry if the 
weather data was not available freely and openly? So both of 
you could address that and then I have another question as 
well.
    Dr. Gail. Yes, thank you. I think the future is one of a 
mixed answer where we do want to maintain the goal of free and 
open data to the extent possible because that foundational data 
does really enable broad innovation throughout the private 
sector and throughout the industry as a whole, including the 
academic and government sectors. I believe it's different 
elsewhere in the world. I think we're a shining example because 
of that we have a very robust industry as a result.
    This is not an all-or-nothing situation, and so one of the 
issues right now looking to the future is that we may lack data 
that we could otherwise use if we are completely constrained to 
a free and open policy. So we have to look--I believe the 
overarching goal is the public welfare here. So how do we best 
serve the public? And in the end it may be some aspect of a 
mixed policy.
    Ms. Bonamici. Thank you. Dr. Bogdan?
    Dr. Bogdan. When your data isn't out there and available, 
people can't look at it. One of the most amazing aspects of 
crowdsourcing today is with free and open data, anyone on the 
planet can look at that data and tell you how good it is, how 
bad it is, where it has blemishes, and what else it can be used 
for. And so I think we benefit so much from everyone being able 
to look at it.
    On the second point, the atmospheric sciences community has 
a long history of sharing data because weather really respects 
no political boundaries. And so sharing data with our 
international partners openly and freely has been a cornerstone 
of how we have worked together across borders to protect the 
lives and livelihood. If we do not share our data openly, then 
there is always the option that our international friends and 
partners may choose not to share their data openly with us.
    Ms. Bonamici. Thank you. And I know we look forward to 
working with all of you to get that balance right. Sometimes 
the technology changes faster than the policy.
    So weather is, as we discussed, a global phenomenon, and 
while interconnected, affects everyone differently. And I'm 
really excited about the potential that you, Dr. Gail, talked 
about to more personalized forecasts. My constituents in Oregon 
might be interested in knowing the wave heights from marine 
weather forecasts that serve our commercial fishers and the 
good people in Oklahoma might be equally interested in soil 
moisture readings for their local farmers.
    So I know the private sector has demonstrated an ability to 
react to these niche weather markets by taking NOAA data and 
adding value to it for the benefit of specific end-users. And 
during the consideration of H.R. 1561, I did offer an amendment 
to advance NOAA's partnerships in this space. I look forward to 
continuing to work on that.
    Dr. Gail, how has NOAA contributed to sector-specific 
forecasts and how can they improve their support of private 
industries that provide these focused forecasts and products?
    Dr. Gail. Yeah, one of the interesting trends that we are 
facing is the sectorization of the forecast. So as I mentioned 
in my testimony, we're moving from a--sort of a one-size-fits-
all forecast to a forecast for each particular sector and 
multiple forecasts within a particular sector. NOAA provides 
the foundational data for all of that. The private sector is 
really best at doing that customization, that sector-specific 
activity because it requires knowing each end-user's needs 
quite well rather than a broad set of users.
    So it is in the end, I believe, a really tremendous 
partnership of foundational data, foundational services being 
provided by NOAA and then this sector-based customization that 
is provided by value-added providers, private sector and other 
organizations as well.
    Ms. Bonamici. Terrific, thank you. And I have another 
question, which I'll submit for the record because my time is 
expired. I yield back. Thank you, Mr. Chairman.
    Chairman Bridenstine. And we might be able to do additional 
questions, maybe a second round as well.
    Regarding this balance that I think we're all trying to 
strike here, I'd like to--Dr. Gail, you brought up I think an 
important point about the two trains. You have a government 
train and a commercial train and they're both going the same 
direction but maybe one's going faster than the other. If the 
government train required the commercial train to give all of 
its rides away for free, would the commercial train even exist? 
That's the question. And I think that's the balance that we 
have to strike. If we're trying to serve the global public 
good, we've got to have a market, and if we destroy that market 
before it even created, then that global public good would not 
exist.
    I'd like to recognize my friend from Alabama, Mr. Palmer, 
for five minutes.
    Mr. Palmer. Thank you, Mr. Chairman. And thank you to the 
witnesses.
    Dr. Bogdan, in your testimony you say that atmospheric data 
must be high-quality, consistently generated, and remain in the 
public domain to meet societal goals of resilience and the 
protection of lives and livelihood. Let me ask you, what is 
currently being done to ensure that the data used to make 
reductions is high quality and how can we improve this area 
going forward?
    Dr. Bogdan. There's a considerable amount of validation and 
verification that takes place with data at various levels. That 
starts, for instance, with NOAA, the data to come in from their 
satellites. It also starts with data that comes in from private 
sources as well. The careful screening of that data allows us 
to understand how it can be used and where it can be used. With 
crowdsourcing data, we have the ability to use many data points 
in a given area to understand the validity of certain data 
pieces that are there.
    Mr. Palmer. What if the data that the private company 
collects is a higher quality--better than the government data? 
Is there any issue there?
    Dr. Bogdan. The academic world loves to work with data of 
all varieties and we like to work with high-quality data. And 
we really don't have a strong opinion as to where the data 
comes from. But the fact that our students, our post docs, our 
grad students can access those data and use them to understand 
more about the systems and in fact even help the individuals 
that have generated those data to understand their quality I 
think is a plus for everyone.
    Mr. Palmer. Just--and a general observation from your 
experience, have you found commercial data to be equal in 
quality to the government data or in many cases superior to 
that data?
    Dr. Bogdan. I personally don't have experience of that.
    Mr. Palmer. Do you have any knowledge----
    Dr. Bogdan. No, I don't.
    Mr. Palmer. --that relates to that? All right.
    You also said that public access to data is essential for 
science to advance data openly available to the scientific 
community provide opportunities for widespread review and 
analysis that drive innovative science and economic 
opportunities. Are there ways to provide access to atmospheric 
data while also fostering a commercial weather industry?
    Dr. Bogdan. I believe there is, absolutely.
    Mr. Palmer. Do you--are there ways to ensure that it's 
widely disseminated while also ensuring that the commercial 
entities have an economic incentive to collect it?
    Dr. Bogdan. I think there are many ways to do that and 
that's why when this Subcommittee and others think about what 
the right policies are, it's important to have the public, the 
private, and the academic sectors at the table so that each 
side can bring forward their issues and their impacts. I think 
we can find many creative ways to create a business around the 
collection of data and also have that crowdsourced and used by 
universities as well.
    Mr. Palmer. One last question for you, and that's in the 
context of that answer in collaborations with international 
partners. Could you elaborate just briefly on those 
partnerships?
    Dr. Bogdan. Through the World Meteorological Organization 
of which Laura Furgione is the permanent representative from 
the United States, there have been policies for many years 
about exchange of data between various met agencies. We rely on 
incredible data from EUMETSAT in Europe for our weather 
forecasting capabilities in the same way that they rely on our 
GOES data and our NPOESS data. So we have been exchanging these 
data all the way down to ground-based data as well that come in 
from various Mesonet networks.
    Mr. Palmer. Ms. Robinson, the Hosted Payload Alliance has 
numerous contracts and it's involved in other federal agencies. 
How many contracts do your companies hold with NOAA?
    Ms. Robinson. Zero.
    Mr. Palmer. Zero. Is there a hesitation from NOAA on using 
the services of hosted payloads?
    Ms. Robinson. In fact, they recently highlighted--NOAA 
highlighted hosted payloads as a key ingredient in their future 
space architecture program so we're quite encouraged to see 
that. And certainly as the Hosted Payload Alliance endeavor to 
furthering engage NOAA and help them to realize the benefits 
that commercially hosted government payloads can bring to the 
agency.
    Mr. Palmer. So you see it as a possibility to leverage the 
commercial space sector's responsiveness and efficiencies while 
still ensuring that the government's weather sectors needs for 
mission reliability and operational utility are met?
    Ms. Robinson. Yes indeed, and actually there are vehicles 
in place that NOAA has expressed interest in, including the 
U.S. Air Force, HoPS Hosted Payload Solutions contracting 
vehicle. So it is our sense from the Hosted Payload Alliance 
that they are indeed--NOAA is indeed pursuing ways to further 
leverage hosted payloads as a means of accessing space.
    Mr. Palmer. My time is expired. Thanks, Mr. Chairman.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to recognize the gentleman from California, Mr. 
Takano, for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Gail, you mentioned, you know, the idea that if we 
are--that we might be limited in our opportunities if we are 
constrained to a free and open data policy. Can you elaborate 
on that a little more?
    Dr. Gail. Yeah. And again, the principle of free and open 
data is really a sound one, but increasingly, there are data 
sets that are associated with weather, maybe directly or 
indirectly such as pressure sensors on mobile phones, that may 
or may not be freely available to the government to use for 
weather prediction purposes. And without getting too specific 
about which ones are free and which ones are not free, at some 
level it would be a shame to not have access to all of that 
data to help improve our forecast capability. So I can 
certainly anticipate data sets that might not be free. So how 
do you make use of those subject to the general goal of free 
and open data whenever possible?
    And so there are nuances here in this discussion that I 
think are going to be challenging to resolve; there's no 
question about it. But the goal is to have access to all of the 
data possible to improve weather forecasts.
    Mr. Takano. But let's examine that--this line of thinking a 
little more. Let's just hypothetically talk about--I mean this 
is a--sort of a crowdsourced bit of information, right? We have 
data--pressure data that comes from millions of cell phones. 
How is that--is that a--in your mind a completely privately 
sourced information? Obviously, the millions of users are all 
part of the public but would that be possible without sort of 
the public airwaves or--I mean it's probably a privately owned 
spectrum but I mean do they--does the company--the cell phone 
company own that spectrum absolutely? Is it on lease from the 
government?
    I mean I don't--I'm not an expert on this on this sort of 
law but I'm just saying that there's--there seems to be a lot 
of public assets involved in that and might not the public sort 
of claim, well, that sort of information really is in the 
commons? How can the cell phone company or communications 
company assert that they have sort of the right to some sort of 
profit off of it?
    I mean they make money off of--there's a certain--they 
certainly make a lot of money off of the service they're 
providing but why couldn't we sort of say that this sort of 
crowdsourced information is in--for the benefit of the public 
and even globally, humanity, that we could set that global 
principle internationally that certain functions of millions of 
these cell phones, whether it's in Zimbabwe or Arkansas or 
wherever, that ought to be in the commons.
    And I mean it shouldn't be that much of a--I mean how 
expensive would that be to, you know--I mean I could see them 
saying, well, this is more government regulation; you're asking 
us to provide pressure information for free. But another 
perspective is that, well, you're using the airwaves, I mean, 
there's only a limited amount of spectrum, you're in a sense 
leasing and renting this on a long-term basis, and this is for 
the public benefit. Do you have a response to that?
    Dr. Gail. And I'm certainly no expert on intellectual 
property in that particular arena.
    Perhaps a better example--because I understand the point 
you're making. Perhaps a better example is the data that comes 
off of vehicles, off of commercial vehicles and consumer 
automobiles that comes out of some fairly sophisticated systems 
inside the vehicles often controlled by the manufacturer or by 
other parties related to that. And I think when you get into 
data like that, you're going to find that particular argument 
about being a public good maybe a little more difficult to 
make.
    Mr. Takano. Okay. Well, I just--I wanted to kind of--I 
don't have a--this is a new area of inquiry for me and I--but I 
think we need to ask these questions. I mean I would have 
questions--that very specific example you're giving, you know, 
it involves public highways and certain--you know, there's a 
certain interplay of how public investment has made that 
information relevant but I can also see that there's been 
private investment in that software development and the 
particular devices. It's a very interesting, you know, area of 
inquiry for us to make the proper and fair public policy.
    Mr. Chairman, I yield back.
    Chairman Bridenstine. I'd like to thank the gentleman from 
California.
    I'd like to recognize that the--the Ranking Member of the 
Full Science Committee, Ms. Eddie Bernice Johnson, is here from 
Texas, and I'll recognize you in five minutes after our--we'll 
go to our side and then back to your side and you will be next 
in order.
    I'd like to recognize the Vice Chairman of the Subcommittee 
on the Environment, Mr. Westerman from Arkansas.
    Mr. Westerman. Thank you, Mr. Chairman, and thank you, 
panel, for being here to discuss public safety, a very 
important topic.
    Last week, a series of devastating tornadoes ripped through 
my Congressional District in southwest Arkansas. It resulted in 
the loss of two young parents' lives as they were shielding 
their 18-month-old daughter during the storm. I toured that 
disaster zone and was struck by just how dependent we are on 
these early warning systems. I know from talking to several of 
the residents there, there was one cell that passed over. Most 
people took cover and then the sirens went off again. And from 
looking at the devastation, you know, we were fortunate to not 
have more loss of life with the property damage.
    But in your testimony you say that a fundamental element 
associated with our ability to reduce the impacts of these 
extreme weather events is the availability and use of reliable 
accurate weather. And you then say that in order for our nation 
to regain its preeminence in weather assessments and 
forecasting it is going to require well-defined and concerted 
efforts from the entire weather enterprise, in other words, 
public, private, and academic sectors, a topic we've all been 
talking about.
    So my question to the entire panel is how can Congress 
better facilitate these efforts for these multiple agencies and 
enterprises to work cohesively together?
    Dr. Pace, if you want to start on that one.
    Dr. Pace. Thank you. It's a very important topic and I 
think one of the items that I brought up in a couple different 
settings is the foundational importance of the spectrum that 
both public and private systems depend on. I was struck 
recently by a briefing by the Aerospace Corporation, which was 
looking at the Emergency Managers Weather Information Network. 
There is--above that band are wireless communication standards 
for long-term evolution, LTE, that we all know and enjoy. It's 
a critical--but the Emergency Managers Weather Information 
Network is a critical NOAA broadcast that's relied upon by 
thousands of first responders nationwide for critical and 
severe weather warnings and it also triggers local tornado 
warnings, as you experienced. And one of the risks or concerns 
that I think folks in NOAA and the public safety side have is 
that very powerful LTE emissions next door pose a risk to the 
reliability and safety of the bands that NOAA uses.
    There are other risks in the same general area. There are 
systems that use river and stream-gauge data to create flood 
warnings downstream that are--have a very critical public 
safety function. And so one of the things we try to bring up is 
that in the President's June 2010 Broadband Initiative Memo, he 
said specifically that any changes in spectrum need to take 
into account that we ensure no loss of critical existing 
planned federal, state, local, and tribal government 
capabilities.
    And so as we're focusing on this commercial remote sensing 
issue, which I think is vitally important, foundationally we 
also need to look to make sure that the public safety spectrum 
that we rely on today is protected because if we don't, we will 
have disasters.
    Mr. Westerman. All right. Would anybody else like to 
briefly address that?
    Ms. Robinson. I would if I could, sir.
    In terms of the hosted payload community and what Congress 
might be able to do to help further facilitate leveraging 
commercial industry in order to get access to space more 
rapidly and more cost efficiently, I would suggest that H.R. 
1561 is certainly a step in that right direction, specifically 
the endorsement of hosted payloads in the section that refers 
to specifically to placement of weather satellite instruments 
on co-hosted government or private payloads. It speaks to a 
broader initiative that would be of greater benefit across 
departments and agencies to make the use of commercially hosted 
government payloads a more regular means of accessing space and 
seeing this means of accessing space as part of the broader 
architecture and planning for it accordingly, budgeting for it 
accordingly as well rather than just a one-off mission, 
planning for it in advance, programming for it, and making it 
part of that future architecture.
    Mr. Westerman. Yes, sir.
    Dr. Bogdan. Just a quick comment, sir. The Office of the 
Federal Coordinator for Meteorology has been around for a 
number of years to try to coordinate activities in the federal 
sector. What we really need is a venue to bring together the 
public, private, and academic sectors who are very eager and 
willing to work together to leverage their unique capabilities 
to help us with extending lead times for forecasts.
    Mr. Westerman. Okay. I think I'm--yield back, Mr. Chair. 
I'll maybe have some questions later if possible.
    Chairman Bridenstine. You bet. The gentleman yields back.
    The gentlewoman from Texas, Ms. Eddie Bernice Johnson, is 
recognized for five minutes.
    Ms. Johnson. Thank you very much, Mr. Chairman.
    I apologize for being late. I had a markup in another 
Committee. And I'd like unanimous consent just to put my 
remarks in the record.
    [The prepared statement of Ms. Johnson follows:]

                  Prepared Statement of Full Committee
                  Ranking Member Eddie Bernice Johnson

    Thank you, Mr. Chairman. I'd like to extend a warm welcome and 
thank you to our witnesses for being here today to discuss the 
potential for increased use of commercial weather data by NOAA.
    As many of you know, this Committee has long been invested in the 
successful development and maintenance of NOAA's observing 
capabilities. This data, especially, the satellite data, is critical to 
NOAA's mission to protect lives and property through accurate and 
timely weather forecasts and warnings.
    While NOAA seems to have its satellite programs back on track, a 
history of mismanagement and cost overruns have caused many to question 
the future of the nation's observing capabilities and the possibility 
of increasing our reliance on the private sector to meet NOAA's space-
based data needs.
    This is an appropriate discussion to have and I am pleased that we 
will be examining that topic more closely today. That being said, I 
have a number of questions and concerns about how such an arrangement 
might work.
    In particular, NOAA currently treats its data as a public good, 
sharing it freely with academia, the private sector, and our 
international partners. Any restrictions on the use and long-term 
availability of this critical data could have a number of unintended 
consequences such as stifling innovation not only in the development of 
our weather and climate models, but in the advancement of research and 
technology more broadly. This Committee has heard over and over again 
how data collected for one purpose has resulted in an unforeseen 
breakthrough in another area. Advancing the use of commercial weather 
data cannot come at the expense of advancing research.
    Additionally, I remain concerned about how the increased reliance 
on commercial entities may impact our international obligations and 
partnerships. Observing the Earth and its changes is a truly global 
enterprise and we all benefit from deep and long-lasting international 
engagement and data sharing. Anything with the potential to harm such 
arrangements must be dealt with from the beginning.
    And finally, Mr. Chairman, I'd like to reiterate a comment 
expressed by my colleague, Ms. Bonamici, about the importance of 
hearing directly from NOAA regarding their plans to strengthen public-
private partnerships in this area and the challenges associated with 
expanding those efforts. I hope will have the opportunity to hear from 
NOAA in at a future hearing.
    Thank you and I yield back the balance of my time.

    Ms. Johnson. I know that NOAA currently treats its data as 
a public good sharing it freely with academia, the private 
sector, and our international partners. Any restrictions on the 
use of the long-term availability of this critical data could 
be a number of unintended consequences such as stifling 
innovation not only in the development of our weather and 
climate models but in the advancement of research and 
technology more broadly.
    The Committee has heard over and over again how data 
collected for one purpose has resulted in an unforeseen 
breakthrough in another area, so advancing the use of 
commercial weather data cannot come at the expense of advancing 
research.
    With that, I'd like to ask, do we believe that the 
Department of Defense provides the best model for NOAA to 
follow or is there a more appropriate analogy for NOAA's data 
needs?
    I guess I'll direct that to Dr. Gail and then whomever 
else.
    Dr. Gail. It's been many years since I've actually worked 
with the Department of Defense so I don't feel like I can 
really address that. They may; I just don't know.
    Ms. Johnson. Anyone else? Yes.
    Dr. Pace. Thank you. I think that's an excellent question 
because there's experience that the Defense Department has had 
with the National Geospatial Intelligence Agency. One of the 
things that happened when we created back when I was in 
Commerce with the Commercial Remote Sensing reforms is that DOD 
was a very big purchaser of privately produced data and there 
was both a private market for that data and there was a 
government market for that data. And NGA is a great purchaser 
of it.
    It in no way replaces or gets rid of the need for 
government-owned defense systems. It is absolutely a 
supplement, a compliment, I think that in fact commercial data 
is easier for NGA to share with our friends and allies. So 
they're coming at it from the other direction.
    In the case of NOAA, they share their government data 
widely and freely but they probably need to shift their 
portfolio a bit to allow for commercial data that is not 
treated the same as foundational science data. NGA has come at 
it from the other direction being a big purchaser and they've, 
I think, benefited from innovation by the private sector while 
still serving national security functions. So I think a 
conversation between NOAA and NGA might be helpful.
    Ms. Johnson. Thank you very much.
    In the 2001 National Academies' report titled ``Resolving 
Conflicts Arising from the Privatization of Environmental 
Data,'' the Academies recommended that avoiding market 
conditions that give anyone firm significant monopoly power is 
a critical consideration when transferring government data 
collection to the private sector. Can you please comment on the 
recommendations and ways to ensure competition and development 
of commercial satellite data?
    Either one. Okay.
    Dr. Pace. I think one of the things that probably NOAA and 
really any agency contemplated that needs to do is they're 
looking at making what in the private sector you call a make-
or-buy decision. Is it better to make their own data with their 
own system or should they buy that data from others? And in 
doing so, they have to decide what risks they want to allocate 
between, you know, who the provider is and what they expect to 
happen if that provider fails to perform as expected and what 
fallback options exist.
    Most critically, no one needs to gain and retain, I think, 
in-house expertise to ensure it can do due diligence and 
oversight of public funds when it goes out and purchases from 
the private sector. Again, when I was at NASA and we looked at 
doing commercial cargo and buying that, we were thinking about, 
yes, this may work, this may save money, we think this is a 
good idea, but we have fallback options. If that's delayed or 
doesn't work, what do we do next?
    And so I think that part of the way you avoid getting 
captured into a monopoly situation is you always think about 
what's your fallback option, what rights do you have if the 
company falters while at the same time wanting to take 
advantage of the innovation and efficiencies that the private 
sector can bring.
    Ms. Johnson. Thank you. Anyone else?
    Dr. Gail. Sure. I'll add to that because I think you've 
touched on a very important point here, which is the 
distinction between a commercial data market where that data 
exists independent of whether NOAA is a buyer or not or a 
relatively captive market, either a project to specifically 
specify the kind of data that is to be procured. And those two 
are very different scenarios that have to be addressed 
separately.
    Ms. Johnson. Thank you very much. My time is expired.
    Chairman Bridenstine. The gentlewoman yields back.
    The gentleman from California, Mr. Bera, is recognized for 
five minutes.
    Mr. Bera. Thank you, Mr. Chairman. And thank you to the 
Ranking Member for this hearing.
    Yeah, when I think about my region, which is northern 
California and the Sacramento region, available commercial 
weather data is incredibly important to us. Obviously, we're in 
the midst of a catastrophic drought right now, but, you know, 
when I talk to our climate scientists and so forth, with 
climate change many of them actually predict that we will have 
wetter winters but we'll have tropical rivers coming through 
that, you know, instead of getting the snowpack that we 
historically have had, precipitation will come down as rain. 
And as--you know, in our region we've got this dual risk of 
mitigating very real flood risks and we've had devastating 
floods in the region but then also the drought that were living 
through right now. And having that commercial data is 
incredibly important to us to managing how we capture that 
water, store that water, and when we do releases or when we 
choose to hold onto additional water.
    I am in general principle someone who believes with 
scientific data, the more open that data is, the better off you 
are. The more folks that can analyze that data, the better off 
you are. And also, I'm a firm believer in the public-private 
partnership, the fact that there are certain things that the 
federal government really has to do in terms of some of the 
advancements in some of the funding of research. But there are 
clearly things that, you know, the private sector, academia, 
and others can do as well in terms of the innovation.
    So Dr. Brogan--or Bogdan, you touched on one area is, you 
know, what would an organization look like that's better 
navigated not just the federal side but then also the access to 
data and, you know, between the private sector, the public 
sector, and academia?
    Dr. Bogdan. I think you make a really important point about 
drought and the fact that our weather forecasts now need to 
begin looking out to seasonal, to interannual timescales. And 
this is an area in particular where I believe the private-
public partnership belong with academia is going to yield 
tremendous advances. The ocean is the planet's memory on these 
timescales and so the atmospheric sciences community has really 
reached out and embraced the ocean community and we're working 
together to try to understand how we can take various sorts of 
data to give better, resilient forecasts so that city planners, 
water managers can understand what is likely to be coming down 
the line.
    We need a place where I think groups can get together and 
know that the decisions they make will be important and will 
have impacts. And that clearly is where time is spent when 
outcomes can be guaranteed from those things. And here is a 
place again where I really see the importance of all sources of 
data, stream gauges, reservoir levels. The data we're going to 
need to solve the sort of problems that you're seeing in 
northern California will not be just the traditional sources.
    Mr. Bera. And it is my hope that as you're collecting all 
that data from multiple sources, from individual cell phones, 
et cetera, that it is going into a big data set that again from 
my perspective you would hope that would be kind of an open 
source, that commercial entities might go in there, look at the 
data, evaluate that data, come out with predictions, et cetera, 
which I think it's perfectly fine then to sell that analytics 
to NOAA. But once NOAA purchases it, it is, you know, my sense 
that I would--as a federal entity, that you would hope that 
that data then is available to farmers and others, that if 
there is information that is coming out that is of public 
benefit and public good, you would want to make that available 
to the public.
    I don't know, Dr. Gail, if you'd want to comment, or Dr. 
Pace.
    Dr. Gail. This is a great discussion. I do not see an 
inherent conflict between the principles of free and open data 
and commercial data sources. I think there are lots of 
individual issues that need to be worked out and challenges, 
but they're not inherently in conflict.
    Mr. Bera. Right.
    Dr. Pace, if you want to----
    Dr. Pace. Yeah, I think it matters kind of where you are on 
a case-by-case basis of where you are in the value chain. I 
mean the raw data that may be of great interest to scientists 
who want the raw data to be able to trace it back and 
understand it, that's not necessarily what the customer wants. 
That's not necessarily what the person watching the evening 
news wants. They want information, not data.
    And so part of the role can be to have open data widely 
available. Really the commercial is in the value-added, doing 
something more with it.
    And in that regard I know sometimes--Mr. Chairman made a 
question that I didn't answer regarding the World 
Meteorological Organization. There's a thing called Resolution 
40, which talks about free and open exchange of data. But in 
that it's very, very specific to certain kinds of data. There 
is no mention of crowdsourced data, you know, in WMO Resolution 
40. There are certainly principles in there and there is 
certainly encouragement for sharing data, as you might imagine 
the meteorological and science community doing.
    But as innovation has come along, I think we'll have to 
look at these international commitments, make sure we're 
meeting those international commitments absolutely because we 
want other countries to meet them. But at the same time to 
think about tailoring our own data policies to encourage that 
private innovation and get this kind of mixture that we want, 
and I think particularly in the value-added end is where the 
most promise lies.
    Mr. Bera. Right. And I see my time is expired.
    Chairman Bridenstine. The gentleman yields back.
    I'd like to now recognize the gentleman from Colorado, Mr. 
Perlmutter, for the next five minutes.
    Mr. Perlmutter. Thanks, Mr. Chairman, and thank you for 
allowing me to participate in today's hearing. This is very 
interesting. I want to thank the panel for being here. I want 
to welcome my friends from Colorado for being here as well.
    So stepping back for a second to us as policymakers up 
here, I mean I've got to look at what our foundational for me 
and the decisions that I make. So protecting lives, preserving 
property, I think advancing science especially on this 
committee, doing all of that, using tax revenues in the most 
efficient and focused way possible, and then listening to the 
testimony, your all testimony, there's really three pieces. 
It's capturing data, analyzing data, and disseminating data. So 
whether it's information, as you said, Dr. Pace, you know, to 
me, turning on the weather and trying to figure out is it going 
to be raining in Colorado, which it's been raining for 3 weeks 
straight and then we expect another 10 days, which is, you 
know, really unusual for us. But that's how I, you know, have 
to plan my day.
    So what I want to see, and I'd open it up to the panel--and 
I'd start with you, Mr. Sternberg, since you haven't had much 
of an opportunity to answer things--I don't think there's 
anybody on the dais up here on our committee that really 
objects to a partnership among academia, the private sector, 
and the public sector to get to those three foundational things 
for us, protecting lives, preserving property, advancing 
science. How do you see this all playing out?
    Mr. Sternberg. Well, Congressman, thank you for recognizing 
me here.
    It's an excellent question, and I think some of the topics 
that have already been discussed are highly relevant. The 
separation in my mind is exactly what you described, the 
generation of data and the generation of information, and who 
is responsible for those segments of the enterprise. So, for 
instance, in the context of what I'm familiar with with the 
lightning provision, my organization generates that data and 
sends that to the federal government for use.
    Mr. Perlmutter. You capture it----
    Mr. Sternberg. We--
    Mr. Perlmutter. --and then----
    Mr. Sternberg. Right.
    Mr. Perlmutter. --analyze it and send it to the federal 
government?
    Mr. Sternberg. Absolutely. So we capitalize the assets that 
are the sensors and all of the equipment that is required, 
maintain that system, and evolve it over time to create a 
competitive data set. And it's competitive in the sense that it 
serves commercial markets, as well as the needs of the federal 
government. And so the distinction there is that I think the 
committee needs to understand that if there's--the section of 
delivering services to the community at large is what has built 
the weather enterprise. This $3 billion enterprise effectively 
has taken publicly available data and added value, as Dr. Pace 
had said, and providing that in the form of a myriad of 
services from deicing to cell phones for soccer fields and so 
on and so forth.
    Mr. Perlmutter. Thank you. Ms. Robinson, so it seems to me 
just from your testimony you all are more in capturing data. Is 
that--am I mistaken?
    Ms. Robinson. Well, I think in terms of hosted payloads, 
when you talk about those three foundational pillars, 
protecting lives, protecting property, and advancing 
technology, that third pillar really helps to accomplish the 
first two. So leveraging commercial satellites and that 
frequent access to space, as I've mentioned, we have on the 
order of 20 commercial satellite launches every year. So 
leveraging the space and capability on those commercial 
satellites to host an instrument, a weather instrument, other 
types of technologies that can promote that advancement, the 
technological advancement ultimately does save time, money, and 
lives.
    Mr. Perlmutter. Okay. Thank you. So, Dr. Bogdan, I had a 
chance to meet with one of your colleagues, Mr. Rader. I think 
that's how--I said that right, didn't I? And as I understood 
the way he explained it, so we have NPOESS and JPSS and GOES 
satellites that accumulate a lot of data that then we make open 
to universities, to UCAR, and we're very happy to have NCAR in 
our State of Colorado. We're very proud of that laboratory. 
That big mass of data then is made available to the private 
sector and to academia, is it not?
    Dr. Bogdan. That is correct.
    Mr. Perlmutter. And then private sector puts its secret 
sauce, its super algorithm--I don't know what it might be--to 
come up with these niche things. Is the question whether the 
federal government should have to pay to buy that back? Is that 
one of the questions we're grappling with?
    Dr. Bogdan. I think in some sense it is a question that we 
are grappling with here and the value-added component is 
something that I think we do look to the private sector to 
bring, the specific niche-type products and services.
    Our academic community interestingly plays in all three of 
those areas you mentioned. They acquire data. Our universities 
are located within communities and they work within those 
communities to gather data. They analyze those data in Ph.D. 
theses and then they also disseminate it. There are many of my 
universities that actually sell products and services to local 
organizations. So they sit in all parts of that.
    Trying to understand what is in the public good, and I 
think that has come up here many times, and separating it from 
what is in some sense a high-level, elite if you want niche-
type product is something where we have to really look 
carefully on a case-by-case basis and decide what that is.
    Mr. Perlmutter. Thank you, and I yield back, Mr. Chair.
    Chairman Bridenstine. The gentleman yields back.
    And without objection, I would just like to follow up real 
quick with Mr. Sternberg.
    You mentioned that you sell data to NOAA. Does your 
agreement with NOAA permit them to give that data away to 
anyone for free?
    Mr. Sternberg. So the arrangement is such that it protects 
the economic value of the data in certain commercial profit-
generating sectors in the marketplace.
    Chairman Bridenstine. Will you hold that thought for one 
second? I want to come back to that but I've got one more 
person I need to recognize before.
    Mr. Sternberg. Certainly.
    Chairman Bridenstine. I'd like to recognize the gentleman 
from Illinois, Mr. Foster, for five minutes.
    Mr. Foster. Thank you, Mr. Chairman.
    Let's--one sort of big picture question I have is that 
there are a number of ways that we invest money. You know, you 
can invest in additional space-based or ground-based data 
collection facilities, supercomputing facilities, university 
and lab salaries. And all of--and so this overall optimization 
should be subject to a rough return-on-investment analysis to 
see if we are spending our money in the right place. You know, 
has that ever been done? What are the difficulties that come up 
when you attempt such an analysis? Anyone?
    Dr. Bogdan. It's something that we've wanted to do in our 
community for a long, long time. The difficulty and why we've 
not achieved it to date is the many ways in which weather, 
climate impact our economy, and they can show up all the way 
from routing of aircraft into impacts on trucking into property 
values. And so trying to really understand the economic impact 
on the one side, which is critical to the return-on-investment 
arguments I think have proved hard for us to do because of the 
many ways in which we connect. Understanding the impact of a 
tornadic outbreak of lives and livelihood, those are statistics 
that in some sense are more easy to come by but they're not the 
whole story of how weather impacts our economy.
    Janet Yellen about a year or so ago, head of the Federal 
Reserve, was talking about the sluggish economy we had in the 
winter quarter and coining a quote which I like very much that 
the weather was a ``headwind on our economy'' during that 
period. So it's something we would like to do and have been 
talking about trying to do as a community.
    In terms of optimizing among the resources that are spent, 
the resources spent by the federal government and the private 
sector are both large and ways in which to optimize those 
require some capacity to get everyone at the table and start to 
think about it. The Federal Coordinator for Meteorology is 
again that agent within the federal government that looks 
across portfolios.
    Mr. Foster. So have there ever been--you say there haven't 
really been efforts to do this?
    Dr. Bogdan. There have not. There have been incomplete 
efforts. Looking at certain parts of our economy, impacts, for 
instance, of hurricanes, extreme events, NOAA has put together 
a lot of wonderful data on what those costs are to the Nation. 
But there are more costs that are somewhat larger that are hard 
to get a hold of that really pervade day-to-day activities. 
Weather outbreaks that cause and traffic to snarl up, what are 
the costs in time, productivity, and so on. Those are large.
    Mr. Foster. Yeah. Also when you talk about intensifying the 
sensor network around the country, first, you know, from a 
return-on-investment point of view, put those in established 
cities and where there are people there for obvious economic 
reasons, which gets into interesting political questions but--
which I will not embellish here.
    So is this something where, for example, a National 
Academies study or something like that would be appropriate or 
do you have the internal facilities to do this and simply 
haven't exercised them yet?
    Dr. Bogdan. No, I think we lack an organization with the 
authority and breadth to do that. The National Academies have 
had studies on many activities generally related to research 
activities and decadal surveys that come up, but we need to be 
looking both in the public, private, and academic sectors here, 
and that's something that I think is broader than our National 
Academies.
    Mr. Foster. Okay. Yeah, well, if you have any specific 
suggestions on the way forward because that sounds like a very 
high-payoff activity to just optimally deploy. You know, it's 
not obvious to me whether we're spending more money on 
university salaries to develop better algorithms instead of 
faster computers, for example, would be the sort of trade-off 
you might encounter.
    And let's see. I have 59 seconds here. Let's see. Do you 
encounter a lot of difficulties with classified equipment both 
in the United States and abroad where you know that there are 
these capabilities to, I don't know, for example, measure the 
heights of reservoirs, things like that, that--and then don't 
really have the ability to publicly make that data available? I 
mean is that a common problem that you have?
    Dr. Bogdan. Our organization does not do any classified 
work. I think it is clear that there is important classified 
information out there that can be helpful.
    Mr. Foster. Okay. And have there been efforts to try to, 
you know, strip off some fraction of the classified equipment's 
output that would be useful or do you really have an absolute 
wall between those two?
    Dr. Bogdan. We maintain that wall.
    Mr. Foster. Okay. And other countries as well?
    Dr. Bogdan. I do not know.
    Mr. Foster. Okay. All right. Because that could be a very 
high-payoff activity for the world as a whole because, you 
know, often, because of cybersecurity problems, you know, a lot 
is known about other countries in our stuff already. We're 
not--these aren't really secret capabilities anymore and making 
them public could be worthwhile.
    Anyway--but thanks so much. I yield back.
    Chairman Bridenstine. The gentleman yields back.
    Without objection, we'll go into a second round of 
questions.
    And kind of where I'd like to start is with you, Mr. 
Sternberg. You mentioned that in order to have an agreement 
with NOAA you actually have to protect the value of the data 
you're providing them, and that's embedded in your agreement. 
Can you share with us how that works?
    Mr. Sternberg. Yes. And maybe in reference to your very 
first question to this panel back in the same time frame where 
the discussion that Dr. Pace brought up regarding the wind 
profiles, 1992 the National Weather Service began adjusting 
data from the National Light and Detection Network, so at about 
the same time frame there was a recognition that private 
sector-generated data was important to the mission of NOAA.
    And so the nature of the arrangement is such where, you 
know, I'm fascinated with the discussion about open and 
available data because I ask the question to whom? It's 
certainly the case that--when we distribute data to the federal 
government, NOAA and all the other agencies, is widely used 
within the confines of the federal government for academic 
research and through partnership arrangements that in that 
particular case with NOAA, that they've set up so they can 
engage and transmit that data for their mission. And so many 
ways it is serving a much broader, widely used purpose, which 
is in the spirit of these open data sets.
    In addition to that, there are academic research 
arrangements that are facilitated through a number of channels 
within our company in particular to send the data to the 
academic institutions for research purposes. Where we draw the 
line is that obviously NOAA should not be in the position to 
transmit data to companies that are then utilizing the data for 
profit because then you sort of have a down-the-chain effect 
there. And so NOAA has been I would say very good at 
recognizing that they're not in that business.
    And so, for instance, one example is in the private--in the 
public utility space. The requirements for public utilities 
when it comes to mitigating their transmission lines against 
lightning is a very unique and boutique market. And as you can 
imagine, the lightning information holds a specific commercial 
value for that particular area. And so for the general 
forecasting purposes, NOAA does an excellent job providing that 
lightning information for those applications and those 
forecasts. But when we're making decisions or the power utility 
business is making decisions on where to run their lines and 
how to ground those towers and how to mitigate those strikes 
against lightning, that's a very different conversation that I 
argue is in the hands of the private sector.
    Chairman Bridenstine. Dr. Pace, my understanding is that 
when it comes to ground-sensing instruments and even aviation-
sensing instruments, the data that is provided to NOAA from 
those instruments is treated differently than data that is 
provide from satellites. Are you familiar with this and can you 
explain what the difference is?
    Dr. Pace. Well, of course I have to demur and say that NOAA 
is really the more expert one to answer this. What I would say 
is that satellite data is often treated differently because of 
its space heritage than ground-based systems, and this is 
something we're running into on the commercial licensing and 
regulatory side, that as we impose more restrictions because 
it's from space than we would impose on the same sensor if it 
was on an aircraft or on the ground. So that's a regulatory 
distinction which is a problem.
    With regard to the World Meteorological Organization, they 
do specify that certain kinds of data from aircraft or upper 
atmosphere sounding networks and so forth should be in the 
public domain but they're very specific about what those things 
are. So there is a general principle of sharing, but when it 
comes to actual obligations by the United States, it's much 
more narrow and specific.
    And it allows for flexibility, as Mr. Sternberg has 
described, for creative meshing. For example, there was the 
commercial remote sensing of ocean temperature, ocean color, 
and it turns out that data is very scientifically interesting 
but it's commercial value is really in the first few days or a 
few weeks where it's of value to, say, a fishing fleet. So 
making data that's very near real-time as commercial only, then 
after it ages out a little bit, make that available to the 
broader scientific community, that's a compromise that I think 
worked fairly well. So, again, case-by-case analysis.
    Chairman Bridenstine. And last point, you mentioned remote 
sensing inside the Department of Defense. Can you share with 
us, once we went to commercial data buys within the Department 
of Defense and all of a sudden--what happened after that? Did 
we get more or less imagery? Were the revisit times more or 
less? Was the imagery more useful or less useful? Can you share 
your opinion on that?
    Dr. Pace. Well, the actual details are probably not 
shareable in a public domain, but what I would say is that 
there was great interest and enthusiasm and support for buying 
commercial remote sensing imagery. And of course it waxes and 
wanes depending on what defense obligations are. So, for 
example, in the aftermath of the wind-down of combat operations 
in CENTCOM, there's been relatively less that's been purchased.
    But one of the primary benefits that people had from it was 
one, you offloaded other more higher priority national systems 
that could go focus on things that only they could do; and two, 
you had data that because it was derived from a commercially 
licensed system could be more easily shared with our coalition 
partners. So it actually facilitated cooperation and data 
sharing in ways that government systems had a hard time doing. 
So it's kind of the opposite problem of NOAA.
    Chairman Bridenstine. So if a government agency were to be 
interested in purchasing commercial data, it would free that 
agency to focus on things really that the government is better 
at doing and allow the commercial industry to focus on things 
that commercial industry can do?
    Dr. Pace. Right. And that is part of what I mentioned about 
sort of a make-or-buy decision. Now, one of the considerations 
in that is if the government does something that maybe 
discourages data sharing, you know, you could be less well off 
so it needs to be--have a very careful analysis. And as my 
colleagues here have said, this is where a discussion of--not 
only between NOAA and the State Department and NASA are 
important, there ought to be industry input to the Department 
of Commerce so they can make a more informed judgment about how 
to craft a data policy going forward. And so I think the more 
we think about that, the better off we'll be.
    Chairman Bridenstine. I am past my time.
    I'd like to recognize the gentleman from California, Mr. 
Takano, for five minutes.
    Mr. Takano. Thank you, Mr. Chairman.
    Dr. Pace, did I hear you correctly, you--there was--I 
wasn't attending fully earlier in the hearing about a 
discussion on public safety spectrum and the need to preserve 
it. That caught my attention and if you could sort of revisit 
that a little more and explain to me your concern about 
preserving public safety spectrum and why it's so important.
    Dr. Pace. Sure. Well, the primary thing is there is, as is 
well known, a--quite a demand for more mobile broadband 
spectrum. You know, we all use it, we all have--carry phones 
and so forth on it.
    Mr. Takano. Enormous commercial, economic pressure.
    Dr. Pace. Absolutely, enormous commercial, economic 
pressure and for understandable reasons. And some of the areas 
of the spectrum where that pressure is most acute are in areas 
where we have GPS operating, where we have meteorological aids 
operating, where we have remote-sensing systems operating. And 
so space signals are very, very weak, and so if you have any 
sort of interference, it's fairly easy to do. If you have a 
very, very powerful next-door neighbor like a high-powered 
communication system, that can affect you.
    And so among the systems, there is a recent auction of 
spectrum--and apologies for this--1695 to 1710 megahertz--
sorry, I wasn't going to do that. But in that auction some 
fairly powerful communication systems are being allowed to go 
there, so as we move forward, adjacent systems operating such 
as the Emergency Managers Weather Information Network are at 
some risk. There's some Aerospace Corporation study that's 
public that I can make available if you would like. And the 
EMWIN is a NOAA system which provides support to first 
responders for critical and severe weather warnings, and some 
of the systems even trigger automatic local tornado sirens 
directly from the satellite broadcast without human 
intervention. Okay. That's very timely. But if there is 
interference to that or if the reliability level drops, then 
those warnings aren't going to be as effective. So I'm not 
saying this is an immediate crisis but this is something that I 
think, you know, NOAA and as public safety people we need to 
pay attention to.
    Other systems in the nearby band deal with radio 
transmissions for stream gauges that do flood warnings, so 
there's a lot of infrastructure that uses public spectrum for 
safety purposes, and that as we're looking at this intense 
commercial pressure, we have a public-private sector set of 
interests that we have to balance and make sure we get right.
    Mr. Takano. Are you aware of shortwave spectrum? I was 
having a conversation with someone about shortwave, that 
there's new technology to utilize shortwave radio spectrum that 
was previously not so useful.
    Dr. Pace. At--
    Mr. Takano. Are you familiar with this topic at all?
    Dr. Pace. No. I can speculate but I don't have direct 
knowledge.
    Mr. Takano. Okay. So you're talking about a need to guard 
what spectrum we have. I'm not familiar completely what the 
spectrum was so that once that spectrum is sold off and 
auctioned off to private users, it pretty much is gone, is that 
right?
    Dr. Pace. No, not necessarily. Some of the spectrum is 
shared. There are conditions that are placed on the spectrum. 
So NOAA, for example, has spectrum managers who watch these 
issues. They report up through their chain of command at NOAA. 
NOAA is in part of the Department of Commerce. Within the 
Department of Commerce is the National Telecom and Information 
Agency, which really represent all federal agencies and then 
speaks to the FCC. The FCC is an independent commission, 
doesn't report to the President, and so there is a dialogue 
that occurs between FCC and NTIA. And NTIA's job is to 
represent the interests of the federal agencies to craft, you 
know, technically balanced solutions that protect those range 
of interests. So it's a bit of a complex process but, you know, 
NOAA is represented in there. But again, sometimes some of 
these smaller details can get overlooked.
    Mr. Takano. Real quickly, anybody can jump in, where is any 
particular--where we're at risk in the current context of 
significant monopoly power sort of interceding into the issues 
that we're discussing today? In other words we want to avoid 
market conditions that give any firm significant monopoly 
power. Where might that monopoly power arise and where should 
this committee be especially worried? If there's anybody that 
has any thoughts on that.
    Go ahead, Dr. Pace.
    Dr. Pace. My apologies. People can interrupt me.
    I think the chances of monopoly power, absent a government 
mandate or regulation creating monopoly power, are really quite 
small.
    Mr. Takano. Okay.
    Dr. Pace. And the reason for that is because space is 
increasingly globalized, and if somebody attempted in the 
United States to create a monopoly power, I can assure you 
there'd be people overseas who would seek to challenge that and 
offer something else.
    So I think the real trick here is to making sure that we 
regulate in a way that promotes our firms, that we protect 
foundational spectrum underneath which we all depend, that we 
use government power to be a good customer and good purchaser 
in the public interest, and that we promote open data sharing 
of foundational scientific data to really make sure that the 
U.S. interests are advanced. So I don't think the chance of 
monopoly power in this area is that great because I think that 
really the world is much bigger than just the U.S. domestic 
market.
    Mr. Takano. Great. Mr. Chairman, thank you.
    Chairman Bridenstine. Thank you. And I would like to maybe 
second that notion that the monopoly power that's of concern to 
me is the current government monopoly of space-based weather 
data. The goal here is to create a competitive market that's 
not a government monopoly.
    I'd like to recognize the Vice Chairman of the committee, 
Mr. Westerman from Arkansas.
    Mr. Westerman. Thank you, Mr. Chairman.
    And Mr. Sternberg, in your opinion, is collaborating with 
NOAA an easy process?
    Mr. Sternberg. I would say yes, it is. And specifically, 
through what is now the Weather-Ready Nation Ambassador 
Program, I think that's been an excellent program that NOAA has 
recognized that they can't do it all themselves, and through 
this ambassador program, it provides the private sector an 
opportunity, as well as the community at large and the entire 
enterprise somewhat of a seat at the table to openly discuss 
the issues that we're talking about today. So I would 
compliment them in that particular initiative to do that.
    I would also compliment them in the manner in our 
experience from the cooperative research and development 
programs that they've facilitated, and this is an opportunity 
for the private sector to truly partner as opposed to a 
contractual arrangement with the scientists within NOAA and 
other private sectors in academia to really develop on a long-
term basis certain search programs.
    Mr. Westerman. So have they ever changed the terms of your 
contract in regards to the openness of data?
    Mr. Sternberg. So, you know, typically these contracts are 
multiple years in scope that are then appropriated from year to 
year. So there's a natural discussion throughout what has now 
been about 20 years, if you will, contractual arrangements with 
NOAA and other federal agencies. So the topic comes up 
obviously in the normal contract cycle, as does the performance 
enhancements and the evolution of any observation network.
    Mr. Westerman. And shifting gears a little bit, can you 
characterize how a commercial model for lighting data has 
impacted the price, quality, and rate of innovation in the data 
that Vaisala uses or provides?
    Mr. Sternberg. Yes. So, you know, part of the--part of my 
written statement talks a little bit about how when there's a 
viable commercial market for a data set, not only does the 
organization that's feeding that data set allow to take those 
profits and reinvest those into advancements within the network 
to create higher-level data or higher levels of performance. 
Over the history of the NLDN, over 30 years, there's just been 
some outstanding reinvestments that have gone into the network. 
There's both the commercial organizations that are bringing 
that data in, as well as the federal government get that 
uplift. And that is truly a win-win situation.
    The best example has been that NOAA back a number of years 
ago was interested in lightning data outside of the coast, off 
of the landmass specifically to look at the Atlantic hurricane 
basin. And so the technology was not there at the time to 
really do that and through reinvestments over time and 
collaborations between the academic and public sector, we were 
able to advance that science to what is now a global 
visualization of lightning over the oceanic and the landmass 
regions. So that's a perfect example of how that commercial 
sector stability and profits can be reinvested in a partnership 
arrangement with the public sector to really satisfy the needs 
of both parties.
    Mr. Westerman. Okay. And, Dr. Bogdan, it's my understanding 
that other agencies around the world in the Europe and the U.K. 
do not operate under the same system of fully open data and in 
fact are hybrids of public and private companies. How do they 
make this issue of open data work?
    Dr. Bogdan. There are different groups that actually charge 
around the world for weather products that they put out. The 
European Centre for Medium-Range Weather Forecasts, for 
instance, does not make their model outputs available. That 
must be purchased. They also--organizations will purchase 
different amounts of data.
    What tends to separate the data that is shared from the 
data that is not tends to be its global nature. Everyone needs 
global data to understand where they live in the larger weather 
patterns that are going on. You might consider very localized 
data that could be dealing with soil moisture in several 
counties in Arkansas, for instance. The importance of that data 
to a European weather model is nowhere near as important as 
global GPS radio occultation might be to it. So often the 
decision to keep certain data private versus public has to do 
with the locality and whether it scales globally or not.
    Mr. Westerman. And I thought soil moisture in Arkansas was 
important to everyone, but with that, I'll yield back, Mr. 
Chairman.
    Chairman Bridenstine. The gentleman yields back.
    The Ranking Member from Oregon, Ms. Bonamici, is recognized 
for five minutes.
    Ms. Bonamici. Thank you very much, Mr. Chairman. I 
apologize. I have a--had another hearing going on at the same 
time, so I really appreciate the second round of questions. And 
thank you to our great panel for sticking with us, and again, 
thank you for the opportunity.
    So for years we've been using this current system where 
NOAA maintains and operates a suite of observing satellites and 
purchases a supplemental ad hoc data to enhance their 
forecasting products. But as NOAA continues to expand its 
procurement of commercial data and expands its public-private 
partnerships, we may run the risk of ceding critical 
observational capabilities to the private sector.
    So I want to ask each of you, are there essential 
observational capabilities that should always be operated by 
the government or conversely, do you envision a system where 
the United States does not maintain satellites and exclusively 
purchases from private companies? What do you think, each of 
you?
    Dr. Bogdan. Let me start. I think that again we have to 
look at these things on a case-by-case basis, so it's hard, 
unfortunately, to draw on generalizations. But if there is one, 
I think it is that when we have global data sets, data sets 
that span the entire planet, then all of us live underneath 
those data sets and one can understand that there's generally a 
strong argument for that to be in the public good to be out 
there.
    Ms. Bonamici. Thank you. Anybody else?
    Dr. Pace?
    Dr. Pace. And generally I agree with that perspective on 
global data sets. However, I would point out that there are 
certain foundational data sets that are already talked about, 
you know, in the WMO that serve the models. And so new 
innovations that come along I think we should be able to think 
anew about what to do with them.
    So again, I'm a fan of GPS radio occultation data. It uses 
receiver systems that NASA helped develop, which I'm sort of 
proud of. But whether or not GPS occultation data can be a 
privately provided innovation, whether it's a data product from 
it that is what's commercial, whether it may be makes its way 
into the foundational data the WMO, you know, covers as a 
mandate, I think that's something that ought to be debated and 
it's probably an interagency discussion to include state, NOAA, 
NASA and have some industry input, as well as the members of 
this committee.
    So I think we want to make sure we don't mess up our 
foundational systems, the programs of record in GOES and POES, 
but then as we have an opportunity to add new innovations, we 
should think about what's the best way going forward to making 
sure that's really, really robust, and is there really a 
commercial market for this--
    Ms. Bonamici. Right.
    Dr. Pace. --or is this still really fundamentally the 
government is really the only major customer?
    Ms. Bonamici. I appreciate your expertise.
    Mr. Sternberg.
    Mr. Sternberg. Yeah, I just also wanted to comment that 
certainly as it's relevant to a satellite observing system, 
it's equally as relevant to surface observations and aerial 
observations, and so the same discussion that we're having in 
this context should also be extended to surface and aerial 
observations.
    Ms. Bonamici. I appreciate that.
    Dr. Gail or Ms. Robinson? Dr. Gail?
    Ms. Robinson. Thank you.
    I think as we've seen in a myriad of departments and 
agencies and their means of accessing space-based capabilities, 
there are certain capabilities that should continue to be 
provided by those departments and agencies, but where the 
government can rely on the commercial industry, we should. I've 
heard Chairman Bridenstine on a number of occasions quote the 
government ought not be doing what commercial industry can be 
doing for them, and I think that's absolutely the case.
    And when it comes to commercially provided hosted payload 
capabilities, it does offer a degree of resiliency, as well as 
frequency to orbit with the robust launch pipeline. And when 
you look at the cost of some of these large time-intensive 
government satellite systems and then the benefits that can be 
provided by commercial hosts, it's pretty staggering to see how 
quickly you can get on orbit at a fraction of the price with a 
level of reliability that--
    Ms. Bonamici. Thank you.
    Ms. Robinson. --is known to be acceptable.
    Ms. Bonamici. Dr. Gail?
    Dr. Gail. So I think you've asked a question for which 
there probably is no answer, could the future be entirely 
commercial? And it's possible. So now really is the time to be 
building those principles to understand what should guide us in 
that evolution, which should be retained within the government, 
and what can be commercial. And I don't think we know what 
those principles are completely yet.
    Ms. Bonamici. Thank you. And real quickly, following up on 
the gentleman from Arkansas's question about international 
collaboration and differences, Dr. Bogdan, are you familiar 
with the COSMIC-2 program funded by Taiwan? It's expected to 
provide very useful ground-based radio occultation data at 
costs that are dramatically below the conventional NOAA 
satellite program. Do you--what role is UCAR playing in this 
program and what role do you see the private sector playing in 
this area going forward?
    Dr. Bogdan. UCAR has hosted the COSMIC Program Office and 
we work closely with Taiwan and our U.S. partners, NOAA, the 
Department of Defense, and NASA, and also the National Science 
Foundation on that. We process the data initially and then move 
it out quickly to the National Weather Service.
    It's been estimated that with the new COSMIC-2 program 
there'll be about 13,000 occultations per day over the planet. 
Studies have shown that we can actually profit from up to 
130,000 occultations a day. And so we see that there is a lot 
of room for other providers of GPS radio occultation data 
before the models that benefit from them are saturated with 
those data.
    Ms. Bonamici. Thank you so much. My time is expired. Thank 
you, Mr. Chairman.
    Chairman Bridenstine. I'd like to thank the Ranking Member 
for her questions. She yields back.
    I appreciate the reference from Ms. Robinson. I do believe 
that the government ought not do what the commercial sector can 
to the extent that we have a robust, competitive market that 
drives down costs and increases innovation. I don't think we 
need to replace a government monopoly with a commercial 
monopoly, but thank you for that reference. I think you 
captured it well.
    I'd like to recognize the gentleman from Colorado, Mr. 
Perlmutter, for five minutes.
    Mr. Perlmutter. Thank you, Mr. Chairman. So my question 
is--and I'll start with you, Dr. Bogdan, and then to you, Dr. 
Gail, since I want to talk to the guys from Colorado. See, 
that's why they put male this committee, because I just talk 
about Colorado all the time.
    So big data, all right, and Mr. Sternberg talked about he 
captures this data, analyzes it, sells some of it--or sells it 
to the--to us, the United States. There may be some strings 
attached in his contract. So a lot of what we're talking 
about--I'm a lawyer--sounds very contractual to me and, you 
know, how do you cut the deal between the two? What strings are 
attached? What aren't attached? You know, who is it--you know, 
do we do it commercially or not?
    But now there's all this data and we have--you have the 
ability at NCAR, we have the ability among the laboratories to 
analyze a lot of this data. A lot of it we don't really--you 
know, we look at a lot of it. There may be something five years 
from now that helps us pinpoint something. I mean this is 
evolving every day.
    Is--who is capturing this--who is archiving this data and 
who has access to the library? Or is that something we've been 
thinking about?
    Let's start with you, Dr. Bogdan.
    Dr. Bogdan. It is something we've been thinking about for a 
long, long time because we are literally drowning in data. And 
it's important to note that data does not necessarily equal 
information. It does not necessarily equal understanding. Some 
data are very redundant. We capture those data I think each in 
our own separate ways. We curate a lot of data at the National 
Center for Atmospheric Research but so does NOAA at its data 
centers, the National Climate Data Center in Asheville, our 
National Geophysical Data Center in the Skaggs Building on 
Broadway and Boulder. NASA has increasingly asked its PIs to 
take the critical data from their mission and curate it.
    I think the future will be those data will be living in the 
cloud along with virtually everything else we do and that they 
will have their own proprietors and owners and people that keep 
up with it. But there is a hidden cost to maintaining data and 
we're going to have to think in the long-term about those costs 
and who bears those costs for those data. So it's a very 
pressing question and one that I think we're all struggling 
with but understand the importance of getting the right answer.
    Mr. Perlmutter. Dr. Gail?
    Dr. Gail. Yeah, this is a question that's present in a lot 
of people's minds these days, and there are two separate 
initiatives right now, separate but related initiatives, one 
within NOAA to bring their data out more readily into the 
public domain working in partnership with a number of large 
private sector companies, and a separate initiative at the 
Department of Commerce level with a committee that's been 
formed to look at how to get Department of Commerce data and 
all of its value out more easily into the public. And so those 
are things that are being worked on right now because of 
recognition of exactly what you said.
    Mr. Perlmutter. Okay. Mr. Sternberg, in your--with your 
company and its relationship with NOAA--and I may have not 
heard this correctly--is there some limitation in terms of 
NOAA's use or its ability to disseminate the data that it gets 
from you under your contracts?
    Mr. Sternberg. Specifically in the context of the lightning 
data, the last thing that we want to do is throttle innovation 
with our data. And so the arrangements are typically written 
such that there is an opportunity for any--for federal 
agencies, NOAA in particular, to share that information within 
their partnerships or their programs as they see fit towards 
their mission. And so----
    Mr. Perlmutter. But would there be a limitation though to 
make it free and open to, you know, somebody down the block 
who's not a federal--you know, isn't in a federal agency?
    Mr. Perlmutter. Yes, and there is a limitation and they're 
entirely to protect certain commercial markets for that 
product.
    Okay. So--but again, this is a contract that you've reached 
with NOAA----
    Mr. Sternberg. That's correct.
    Mr. Perlmutter. --so you're able to set the parameters. 
They can say yes, no, or maybe if they want to enter into a 
contract with you or not?
    Mr. Sternberg. Yes. I would call it more of a balance 
because, you know, if the--back in 1992 there wasn't a lot of 
this happening and so this has evolved over time, and yes, in a 
contractual RFP-type of context but moreover in terms of a 
balance of the recognition that a private sector organization 
can equally lead the development and the investments going into 
a network that creates this data set. So I just want to stress 
that that is a balance. It is correct but it is----
    Mr. Perlmutter. No, and I'm not----
    Mr. Sternberg. --but it's also a----
    Mr. Perlmutter. --complaining about it.
    Mr. Sternberg. Yeah.
    Mr. Perlmutter. I'm just saying it's--you know, I'm just a 
lawyer and I--that just sounds like a contract for me and 
you've got certain provisions that are important to you and 
your company and your ability to sell, you know, within the 
private sector as well. You have other customers.
    Mr. Sternberg. Correct.
    Mr. Perlmutter. And you want to protect those customers. 
NOAA doesn't have to do a deal with you.
    Mr. Sternberg. That's right.
    Mr. Perlmutter. And they say, no, we're not going to go 
along with that or yes--yeah, we'll live with that.
    Mr. Sternberg. Um-hum.
    Mr. Perlmutter. So I just appreciate that. Thank you for 
your testimony.
    Mr. Sternberg. One other point though I just wanted to say 
is that it is possible to procure the exclusive data rights for 
free distribution however the government would see fit, so that 
is an opportunity that any Federal agency would have. Of 
course, that is again a contractual and a financial negotiation 
at that point.
    Mr. Perlmutter. Okay.
    Mr. Sternberg. So it's not eliminated by the contract; that 
is open to any agency depending on what their goals and 
objectives would be with that data set.
    Mr. Perlmutter. Okay. Thank you. I yield back.
    Chairman Bridenstine. I thank the gentleman from Colorado 
for your attendance today. One point I'd like to make before we 
close here is, Dr. Bogdan, you said 13,000 radio occultations 
per day is what we currently get with COSMIC-2?
    Dr. Bogdan. That's what we will be getting----
    Chairman Bridenstine. We will get.
    Dr. Bogdan. --with COSMIC-2.
    Chairman Bridenstine. Okay. And you're saying we can get up 
to 130,000 occultations per day before we hit diminishing 
marginal returns?
    Dr. Bogdan. That is what the studies show.
    Chairman Bridenstine. That's pretty amazing. And I think 
what's important here, earlier you were talking about the 
difference between global data sets and regional data sets and 
that being differentiated between what's given away for free 
and what there's a market for. When you get up to 130,000 
occultations per day, the fidelity gets down to the point where 
global data sets actually are very impactful at a local, 
regional level. And so this is a balance that we're going to 
have to figure out how to address so that we can create the 
market to get those 130,000 data sets, 130,000 radio 
occultations per day.
    I have one last thing. As I mentioned in my opening 
statement, last night the House passed H.R. 1561, the Weather 
Research and Forecasting Innovation Act of 2015. I want to make 
sure before we close that everybody understands that this would 
not be possible without the Ranking Member, Ms. Bonamici from 
Oregon, for her hard work to make this a very bipartisan 
effort, and that's critically important.
    Our committee received enormous support for our weather 
legislation, including companies from the evolving private 
weather sector. I'd ask unanimous consent to enter into the 
record letters of support for our bill and for this hearing in 
fact from Geo Optics, Planet IQ, Spire Global, Tempus Global 
Data, Panasonic Avionics Corporation. And without objection, so 
ordered.
    [The information appears in Appendix II]
    Ms. Bonamici. I have no objection, Mr. Chairman.
    Chairman Bridenstine. Roger that.
    I thank the witnesses for their valuable testimony today. 
It was a highly enlightening panel. I thank the Members for 
their questions.
    The record will remain open for two weeks and additional 
comments and written questions from Members will be permitted 
for the next two weeks. This hearing is adjourned. Thank you 
for attending.
    [Whereupon, at 12:05 p.m., the Subcommittee was adjourned.]
                               Appendix I

                              ----------                              


                 
                   Answers to Post-Hearing Questions
Responses by Dr. Scott Pace
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Mr. Scott Sternberg
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


Responses by Ms. Nicole Robinson
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

Responses by Dr. Thomas Bogdan
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                              Appendix II

                              ----------                              


                   Additional Material for the Record


             Letters submitted by Chairman Jim Bridenstine

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
